United States
Department of
Agriculture     Office of
                Inspector General
Office of
Inspector
General

No. 44

NOVEMBER 2000   Semiannual Report
                to Congress
                FY 2000—Second Half
On the cover: The eagle is used for the symbol of our law enforcement initiative “Operation Talon.” It represents law enforcement
swooping down to snatch fugitive felons off the streets. See inside for details of this highly successful initiative. U.S. Fish and Wildlife
Service photo.

The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, sex, religion, age, disability, political beliefs, sexual orientation, or marital or family status. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at 202-720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, D.C. 20250-9410 or call (202) 720-5964 (voice and TDD). USDA is an equal opportunity provider and employer.
                          UNITED STATES DEPARTMENT OF AGRICULTURE
                                       OFFICE OF INSPECTOR GENERAL

                                           Washington D.C. 20250




                                                                                      October 30, 2000

The Honorable Dan Glickman
Secretary of Agriculture
Washington, D.C. 20250

Dear Mr. Secretary:

I am pleased to submit the Office of Inspector General’s Semiannual Report to Congress summarizing
our activities for the 6-month period which ended September 30, 2000.

During this period, our audits and investigations yielded approximately $61 million in
recoveries, collections, restitutions, fines, claims established, and costs avoided. Further, management
agreed to put more than $232 million to better use. We also identified nearly $16 million in questioned
costs that cannot be recovered. In addition, our investigations produced 240 indictments and
251 convictions.

We are reporting on our Food Safety Initiative. We conducted a series of audits to determine whether
the meat and poultry inspection program remains effective under the science-based Hazard Analysis and
Critical Control Point (HACCP) System. We reviewed HACCP, laboratory analyses, foreign imports,
and the compliance program that carried over from the previous system. Positive steps have been
taken, but more needs to be done in all four areas reviewed.

I again extend my appreciation to you, the Deputy Secretary, and the Congress for your support in
furthering our mutual efforts to improve the integrity and efficiency of the Department’s programs and
operations.

Sincerely,




ROGER C. VIADERO
Inspector General

Enclosure
Contents


                                                                                                                                                                           Page
Executive Summary ...............................................................................................................................................            1
Summaries of Audit and Investigative Activities ................................................................................................                             3
OIG in Focus ...........................................................................................................................................................     4
Public Corruption Investigations ..........................................................................................................................                  6
Workplace Violence Investigations ......................................................................................................................                     8
Food Safety
   Food Safety and Inspection Service ....................................................................................................................                   9
Natural Resources and Environment
   Forest Service ......................................................................................................................................................    11
Farm and Foreign Agricultural Services
   Farm Service Agency ..........................................................................................................................................           13
   Risk Management Agency ...................................................................................................................................               16
   Foreign Agricultural Service .................................................................................................................................           18
Food, Nutrition, and Consumer Services
   Food and Nutrition Service ..................................................................................................................................            19
   Food Stamp Program ..........................................................................................................................................            19
   Child Nutrition Programs ......................................................................................................................................          22
Marketing and Regulatory Programs
   Agricultural Marketing Service .............................................................................................................................             23
   Animal and Plant Health Inspection Service ........................................................................................................                      23
Rural Development
   Rural Housing Service .........................................................................................................................................          25
   Rural Business-Cooperative Service ...................................................................................................................                   26
Research, Education, and Economics
   Agricultural Research Service .............................................................................................................................              28
Financial, Administrative, and Information Technology
   Financial Management ........................................................................................................................................            29
   Information Technology .......................................................................................................................................           30
   Government Performance and Results Act of 1993 ............................................................................................                              31
Statistical Data
   Audits Without Management Decision .................................................................................................................                     32
   Indictments and Convictions ................................................................................................................................             40
   Office of Inspector General Hotline ......................................................................................................................               41
   Freedom of Information Act and Privacy Act Requests .......................................................................................                              42
Appendix I: Inventory of Audit Reports Issued
     With Questioned Costs and Loans ................................................................................................................                       43
Appendix II: Inventory of Audit Reports Issued
     With Recommendations That Funds Be Put to Better Use ..........................................................................                                        44
Appendix III: Summary of Audit Reports Released Between
     April 1 and September 30, 2000 ......................................................................................................................                  45
Executive Summary


This is the 44th Semiannual Report of the Office of          Operation Talon arrests continue to climb. As of
Inspector General (OIG), U.S. Department of Agriculture      September 30, 2000, Operation Talon had resulted in
(USDA), pursuant to the provisions of the Inspector          6,733 arrests of fugitive felons during joint OIG, State,
General Act of 1978 (Public Law 95-452), as amended.         and local law enforcement operations throughout the
This report covers the period April 1 through                country. Serious crimes perpetrated by those arrested
September 30, 2000.                                          included homicide-related offenses (murder, attempted
                                                             murder, manslaughter), sex offenses (child molestation,
In accordance with the requirements of the Inspector         rape, attempted rape), kidnapping/abduction, assault,
General Act, this report describes matters relating to the   robbery, and drug/narcotics violations.
Department’s programs and operations which occurred
during the reporting period. These include significant       The former budget officer of the Natural Resources
problems, abuses, and deficiencies; significant              Conservation Service’s (NRCS) National Business
recommendations for corrective action; prior significant     Management Center (NBMC) in Fort Worth, Texas,
recommendations unimplemented; prosecutorial                 pled guilty in Federal court to embezzling over
referrals; information or assistance refused; a list of      $300,000 from NRCS. He embezzled money as the
audit reports; a summary of significant reports; tables on   budget officer at NBMC, as well as when assigned as
questioned costs and funds to be put to better use;          an NRCS budget officer in Ohio. He was sentenced to
previous audit reports unresolved; significant revised       serve 18 months in prison and ordered to make
management decisions; any significant management             restitution of nearly $311,200.
decision disagreements; and a review of legislation and
regulations.                                                 The owner of cotton warehouses in Georgia and South
                                                             Carolina was sentenced to serve 35 months in Federal
Monetary Results                                             prison for his scheme to defraud approximately
                                                             140 cotton farmers out of their cotton and sales
During this reporting period, we issued 51 audit and         proceeds worth more than $9 million. The defendant
evaluation reports and reached management decisions          pled guilty to 32 felony counts involving mail fraud, wire
on 56. Based on this work, management officials              fraud, and money laundering. The defendant was
agreed to recover $10.2 million and to put an additional     ordered to pay restitution of over $4 million.
$232.4 million to better use.
                                                             A corporation, its president, and its vice president were
We also issued 300 reports of investigation during this      indicted for contract fraud involving a renovation project
period. Our investigative efforts resulted in                at an Agricultural Research Service research station in
240 indictments, 251 convictions, and approximately          Pennsylvania and renovation work for the U.S. Navy,
$50.5 million in recoveries, fines, restitutions, claims     with contracts totaling over $5.6 million. The president
established, and cost avoidance.                             of the corporation has pled guilty to the charges and is
                                                             awaiting sentencing. Trial is pending for the vice
Investigative Efforts                                        president and corporation.

The owner of a San Francisco Bay area sausage                A bookkeeper and two retail firm owners in Los Angeles
company is in jail awaiting trial on charges that he shot    have pled guilty to various tax and/or food stamp fraud
and killed two Food Safety and Inspection Service            charges following an investigation into a massive food
(FSIS) compliance officers and a California Department       stamp fraud conspiracy. One of the retailers was
of Food and Agriculture (CDFA) investigator. He is also      sentenced to 27 months in prison and $3 million in
charged with attempted murder of a second CDFA               restitution, while the second retailer was sentenced to
employee, an inspector. The four officers were at the        9 months in prison and restitution of $4.1 million. We
sausage company plant to discuss suspected Federal           suspect that illegally obtained food stamp coupons
and State meat production, labeling, and distribution        worth in excess of $50 million were redeemed from
violations. The death penalty is being sought by the         1994 to 1997 by the 24 firms targeted for investigation
State prosecutors.                                           following the review of records seized from the
                                                             bookkeeper.




                                                                                                                      1
In Minnesota, a husband and wife were found guilty of       As a part of a proactive approach and increased
46 felony counts that included conspiracy and various       coordination and communication with the Risk
types of fraud. The couple created and operated two         Management Agency that resulted from our joint agency
farming corporations, and elicited the assistance of an     roundtable, we devoted a large portion of our resources
elderly neighbor as the “straw” president and sole          during this reporting period to several key areas: three
shareholder of one of the corporations. From 1990           workgroups, the quality control system, and
through 1999, the couple illegally obtained over            implementation of the Agricultural Risk Protection Act of
$940,000 in payments and loans. Sentencing is               2000. Among other benefits, this work should
pending.                                                    contribute to a more accurate and meaningful error rate
                                                            for the Federal crop insurance program and a decrease
The Foreign Agricultural Service and a U.S. Private         in the recurrence of the types of program abuses we
Voluntary Organization (PVO) signed an agreement to         have identified in the past.
provide for butter and butter oil, to be donated by the
Commodity Credit Corporation, for assistance in the         Operation “Kiddie Care,” our nationwide initiative to
Russian Federation. The proceeds were to be used for        identify, remove, and prosecute unscrupulous Child and
humanitarian projects and investment in Russian             Adult Care Food Program (CACFP) sponsoring
agribusinesses. In December 1998, $980,000 was              organizations, continued to be successful. OIG worked
fraudulently wire-transferred from the account of the       closely with the Food and Nutrition Service (FNS)
PVO, through three U.S. banks, to a bank in Latvia,         concerning needed regulatory and legislative changes
where the funds were immediately withdrawn. To date,        recommended in our August 1999 audit report. In June
$966,000, or 98.6 percent of the stolen funds, has been     2000, Public Law 106-224 was enacted, which included
recovered and returned to the PVO. However, no              provisions to restore program integrity to CACFP. We
recovered funds have been returned to USDA for use in       are specifically reporting on audits and investigations in
other U.S. food aid programs.                               New York, Arizona, California, Georgia, and Michigan.

Audit Efforts                                               OIG assisted the Farm Service Agency (FSA) in a
                                                            critical area that is unnecessarily costing the
We are reporting on our Food Safety Initiative. OIG         Government many millions of dollars—the failure to
initiated a series of audits to determine whether FSIS’     establish guaranteed loan losses as Government debt,
meat and poultry inspection program remains effective       as required by law. As a result, losses in excess of
under the science-based Hazard Analysis and Critical        $200 million were not reported to the U.S. Department
Control Point (HACCP) System. We reviewed HACCP,            of the Treasury during fiscal years (FY) 1997 through
laboratory analyses, foreign imports, and the compliance    2000 for collection. FSA has agreed to take the
program that carried over from the previous system.         necessary steps to fulfill the law and collect the debt.
FSIS has taken positive steps, but more needs to be
done in all four areas reviewed.                            We audited the Department’s implementation of
                                                            Presidential Decision Directive (PDD) 63, “Policy on
This reporting period, we completed our final analysis of   Critical Infrastructure Protection.” The Department has
the $38 million Zephyr Cove Land Exchange at Lake           neither fully identified its mission-essential infrastructure
Tahoe, which disclosed serious flaws in the Forest          nor performed the necessary assessments to identify
Service’s (FS) administration of the land exchange          the threats, vulnerabilities, and potential magnitude of
program, as had been indicated in a 1998 interim report.    harm that could result from an attack. Also, the planned
Our most recent audit disclosed a pattern similar to        formation of a Critical Infrastructure Assurance Council,
practices described in an August 1998 audit report.         composed of agency management representatives to
However, one exchange demonstrated the value of OIG         ensure cyber infrastructure security and PDD 63
intervention.                                               compliance, was never established. The Office of the
                                                            Chief Information Officer agreed with all our
                                                            recommendations and has initiated corrective actions.




2
    Summary of Audit Activities
Reports Issued .................................................................................................................................................         51
  Audits Performed by OIG ....................................................................................                30
  Evaluations Performed by OIG ...........................................................................                      6
  Audits Performed Under the Single Audit Act .....................................................                           13
  Audits Performed by Others ................................................................................                   2

Management Decisions Made
 Number of Reports ..........................................................................................................................................            56
 Number of Recommendations ........................................................................................................................                     399

Total Dollar Impact (Millions) .......................................................................................................................... $258.4
  Questioned/Unsupported Costs .......................................................................................... $ 26.0a,b,c
  Recommended for Recovery .............................................................................. $10.2
  Not Recommended for Recovery ........................................................................ $15.9
  Funds To Be Put to Better Use ............................................................................................ $232.4

a These were the amounts the auditees agreed to at the time of management decision.
b The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
  as debts due the Department.
c Because of rounding, this number does not equal the addition of the two numbers composing it. See Appendix I for exact numbers.



    Summary of Investigative Activities
Reports Issued ...................................................................................................................................................      300
Cases Opened ...................................................................................................................................................        348
Cases Closed .....................................................................................................................................................      376
Cases Referred for Prosecution .........................................................................................................................                205

Impact of Investigations
  Indictments ....................................................................................................................................................      240
  Convictions ....................................................................................................................................................      251a
  Searches ........................................................................................................................................................     111
  Arrests ...........................................................................................................................................................   931b

Total Dollar Impact (Millions) .......................................................................................................................... $50.5
  Recoveries/Collections .......................................................................................................... $ 9.3c
  Restitutions ........................................................................................................................... $34.6d
  Fines ..................................................................................................................................... $ 3.9e
  Claims Established ................................................................................................................ $ 1.7f
  Cost Avoidance ..................................................................................................................... $ 1.0g

Administrative Sanctions
  Employees ...................................................................................................................................................... 31
  Businesses/Persons ...................................................................................................................................... 1,128

a Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore,
  the 251 convictions do not necessarily relate to the 240 indictments.
b
  Includes 726 Operation Talon arrests and 205 arrests not related to Operation Talon.
c
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
d
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
e
  Fines are court-ordered penalties.
f
  Claims established are agency demands for repayment of USDA benefits.
g Consists of loans or benefits not granted as the result of an OIG investigation.




                                                                                                                                                                               3
OIG in Focus


The following article is reprinted from the March/April     investigations could be useful to members of
2000 issue of the Asset Forfeiture News, a bimonthly        the asset forfeiture community because efforts
publication of the Asset Forfeiture and Money               along similar lines could be employed by other
Laundering Section, Criminal Division, U.S. Department      agencies. This article highlights some of these
of Justice. The publication is a central source of          forfeiture-related investigative operations.
Federal forfeiture information, and articles in the Asset
Forfeiture News are intended to assist Federal              Success Stories
prosecutors and agents in enforcing the forfeiture laws
by providing guidance, information, and references.         • Operation “Kiddie Care,” OIG’s Presidential
                                                              Initiative to identify, remove, and prosecute
    In the Spotlight With USDA OIG                            unscrupulous Child and Adult Care Food
    Forfeiture Staff                                          Program (CACFP) sponsoring organizations,
                                                              is one of those successes. Among those
    The U.S. Department of Agriculture (USDA)                 recently convicted were the president and
    programs and operations encompass much                    her assistant of a day care operation in
    more than simply farm issues. They involve a              Michigan. They were found guilty of fraud,
    variety of issues relating to food safety,                embezzlement, conspiracy, and money
    marketing, and regulatory initiatives; natural            laundering related to defrauding CACFP of
    resources and the environment; and rural                  an estimated $17 million between 1989 and
    development; as well as food, nutrition, and              1993. The jury also awarded forfeiture of
    consumer services. Based on this broad scope              more than $1.1 million in cash and three
    of issues, forfeiture statutes can apply to a             properties. The president was sentenced to
    variety of cases involving USDA programs and              9 years in prison and ordered to pay more
    operations.                                               than $13.5 million in restitution and a
                                                              $10 million fine. This case was handled
    In fact, the USDA Office of Inspector General             jointly with the Federal Bureau of
    (OIG) has been working to combat criminal                 Investigation (FBI).
    activity relating to USDA programs through the
    use of forfeiture procedures for nearly a               • A tobacco dealer was convicted of money
    decade. For example, USDA loan, regulatory,               laundering, false statements, mail fraud, and
    and nutrition programs are vulnerable to fraud            conspiracy for his role in a scheme that
    through money laundering (18 U.S.C. §§ 1956,              resulted in the illegal sale of more than
    1957), specified unlawful activities, and other           20 million pounds of excess tobacco. As a
    forfeiture-related violations. In addition,               result of the conviction, the Government
    investigations involving smuggling may detect             forfeited assets including the defendant’s
    specified unlawful activities leading to forfeiture,      residence in Spotsylvania County, Virginia,
    such as false statements (18 U.S.C. § 542),               valued at $1.95 million; $3 million in cash or
    smuggling (18 U.S.C. § 545), Racketeer                    substitute assets; a rental house in
    Influenced and Corrupt Organization (RICO)                Fredericksburg, Virginia, with a value of
    (18 U.S.C. § 1963), and money laundering.                 about $150,000; and a quarter horse
    Other forfeiture-related statutes applicable to           purchased for $500,000 by the defendant.
    cases investigated by USDA OIG include                    One of the tobacco dealer’s codefendants
    bribery of public officials (18 U.S.C. § 201),            was a “Montana Freeman.” This
    interference with commerce resulting from the             investigation was conducted jointly with the
    taking or attempted taking of property by                 Internal Revenue Service (IRS).
    extortionate means (18 U.S.C. § 1951), and
    racketeering (18 U.S.C. § 1962(c)). USDA OIG            • Assets worth an estimated $4 million were
    has achieved successes in an array of asset               seized from the vice president of a North
    forfeiture-related cases, and has worked with             Carolina vegetable oil supply company after
    various Federal agencies during the                       the vice president and others were convicted
    investigations. Knowledge of these varied                 of conspiring to underfill contracts to deliver



4
  vegetable oil to USDA’s Commodity Credit          • In Morgan City, Louisiana, a former store
  Corporation (CCC). As a result of the               owner pled guilty in Federal court to
  scheme, CCC was defrauded of over                   conspiracy and money laundering involving
  $2 million in vegetable oil. After paying           food stamp trafficking. Not authorized to
  approximately $132,000 in kickbacks and             accept food stamps herself, the former store
  bribes, the vice president laundered the            owner operated her store under a fictitious
  remaining funds, paying off his home                name and fraudulently redeemed over
  mortgage in South Carolina, making a                $397,000 in food stamps. In her plea
  downpayment on a lavish home in the                 agreement, she agreed to forfeit over
  mountains of North Carolina, and purchasing         $68,000 in cash, a pickup truck, silver bars,
  an oceanfront condominium. He also funded           and a coin collection, all of which were
  a baseball field that bears his name for a          seized as the result of a search of her
  private college in South Carolina, bought           residence, store, bank accounts, and safe-
  gemstones from a New York diamond                   deposit box. The former owner was
  broker, and made downpayments on canning            sentenced to serve 4 years in prison and
  and bottling manufacturing equipment. The           ordered to pay over $384,000 in restitution,
  assets seized from the vice president include       in addition to forfeiting the above property.
  the two homes, the condominium, the
  manufacturing equipment, and $410,000 in          A Recent Development
  cash. This case represents one of the
  largest successful prosecutions involving         One fairly new development in forfeiture laws
  CCC contract fraud. The case was handled          relating to USDA is a criminal forfeiture statute
  jointly with the U.S. Agency for International    under the Special Supplemental Nutrition
  Development OIG, the FBI, and the IRS.            Program for Women, Infants, and Children,
                                                    which is a USDA program commonly known as
• Two owners operating a horse export/import        WIC. On October 31, 1998, President Clinton
  business in Virginia and Germany and their        signed the William F. Goodling Child Nutrition
  company pled guilty to smuggling and              Reauthorization Act of 1998 (Act), Pub. L. No.
  providing falsified information concerning the    105-336, 112 Stat. 3143 (1998). Section 203 of
  age of horses being exported from Germany.        the Act contains criminal forfeiture provisions for
  The German veterinarians unknowingly              certain WIC violations. These forfeiture
  issued inaccurate health certificates for         provisions are not retroactive and apply only to
  export to the United States. The certificates     WIC forfeiture violations that occurred after
  were presented to officials of USDA’s Animal      October 31, 1998.
  and Plant Health Inspection Service in order
  to avoid 50 days of quarantine in the United      The Future
  States, a requirement for all horses over the
  age of 731 days in order to prevent the           There are ongoing USDA cases involving
  spread of Contagious Equine Metritis. The         forfeiture actions in cities from coast to coast,
  horse owner is responsible for paying for the     and they are used to combat violations such as
  quarantine process. Consequently, at least        money laundering, smuggling, food stamp
  four horses were imported into the United         trafficking, and bribery, to name a few. As
  States without being placed in quarantine.        illustrated, USDA OIG has been employing
  The Government seized the owners’ horse           asset forfeiture as a tool to further its law
  farm in Virginia, valued at $1.2 million, which   enforcement efforts in many areas for some
  the owners forfeited in this case.                time. Certain of these areas may offer ideas for
                                                    parallel successes by other agencies. Building
                                                    on existing efforts can only further invigorate
                                                    already robust law enforcement efforts
                                                    throughout the asset forfeiture community.




                                                                                                          5
Public Corruption Investigations


A top priority for OIG is the investigation of serious       restitution. Three other cases also resulted in
allegations of employee misconduct. During the past          convictions.
6 months, such investigations resulted in 15 convictions
of current or former USDA employees and 31 personnel         • The former budget officer of the Natural Resources
actions. Some recent investigations follow.                    Conservation Service’s (NRCS) National Business
                                                               Management Center (NBMC) in Fort Worth, Texas,
AMS Inspectors Sentenced to Prison for                         pled guilty in Federal court to embezzling over
Bribery Scheme                                                 $300,000 from NRCS. He embezzled money as the
                                                               budget officer at NBMC, as well as when assigned as
We reported last period that a 21/2-year investigation         an NRCS budget officer in Ohio. He was sentenced
uncovered a scheme by which Agricultural Marketing             in Federal court to serve 18 months in prison,
Service (AMS) graders accepted bribes from produce             followed by 3 years’ supervised release, and ordered
wholesalers at the Hunts Point Market in New York City         to make restitution of nearly $311,200.
in return for downgrading produce. The wholesalers
then used the lower grades to negotiate downward the         • A former County Executive Director (CED) for the
price they paid growers for the produce. The scheme,           Farm Service Agency (FSA) in Washington State
detailed in a 65-count racketeering and bribery                pled guilty to charges stemming from her
indictment unsealed in U.S. District Court, took place         embezzlement of approximately $230,000. Over a
over 2 decades and was so pervasive that some of the           5-year period, the CED made, signed, and issued
inspectors took more than $100,000 a year in illegal           approximately 124 USDA checks that were
payoffs. The actions of the AMS inspectors were                purportedly either payments to farmers participating
organized, and, after completing an inspection, they           in USDA programs or payments of administrative
would kick back a portion of the bribe proceeds to the         expenses of the FSA office. The carbon copies of
night supervisor who was in charge of assigning them to        these checks and the underlying documentation
“paying” locations. Nine AMS employees were indicted           showed that the checks were issued to various
on Racketeer Influenced and Corrupt Organization               payees for legitimate expenses and payments.
(RICO) charges and pled guilty to charges of bribery.          However, on each of the actual checks, the CED
In addition, 15 owners or employees of produce                 typed her own name as payee and then converted
wholesalers were indicted on bribery charges with              the funds to her own use. She was sentenced to
8 pleading guilty. One convicted inspector had a               serve 18 months in prison, to be followed by 3 years
$100,000 brokerage account, which was seized as part           of supervised release, and ordered to make full
of the investigation. Others used their bribe monies for       restitution. An FSA County Office Review team
drugs, prostitutes, and automobiles.                           initially uncovered the embezzlement.

Since our last report, seven AMS graders were                • A former Forest Service (FS) employee in Arizona
sentenced to imprisonment ranging from 15 to 30                was charged in a County Superior Court with
months and fines of $4,000 to $70,000. Three owners            fraudulent schemes and artifices, as well as theft of
or employees of produce wholesalers received                   Government funds. Our investigation showed that,
sentences ranging from 6 months’ home confinement to           from December 1998 through November 1999, the
15 months in prison and a total of over $45,000 in fines       employee used an FS-issued Purchasing Card
and restitution. One wholesale employee was                    Management System credit card for more than
acquitted. The investigation is continuing with additional     300 personal purchases totaling over $23,000.
trials and sentencing pending.                                 Sentencing is pending.

OIG Thwarts Several Embezzlements,                           • An FS clerk in Arizona was convicted, along with her
Sentences Include Prison Terms                                 husband, of embezzling approximately $17,000. The
                                                               clerk and her husband, who was a deputy sheriff,
Several OIG investigations addressed embezzlements             were both sentenced to 3 years’ probation. They
by USDA employees, including two cases involving               made full restitution at the time of sentencing. Both
hundreds of thousands of dollars. OIG efforts yielded          resigned from their agencies. This case was worked
significant prison terms in those cases, as well as full       with FS Law Enforcement and Investigations agents.



6
• In Missouri, a former Rural Development loan              was suspended and finally removed from his position as
  processor pled guilty to embezzling $11,570 in Rural      CED before criminal sentencing.
  Development funds that were intended as payments
  toward borrowers’ home loan accounts. From                Store Owners and WIC Clerks Convicted of
  January to March 1999, the employee convinced             Conspiracy and Money Laundering
  12 different borrowers whose home loan accounts
  were in or near default to send various sums of           In Minnesota, a joint investigation with the IRS led to the
  money directly to him under the guise that he would       indictment of both the owner and the manager of a retail
  terminate foreclosure actions. The employee was           grocery store for money laundering, as well as food
  sentenced to serve 1 month in prison and 5 months         stamp and Special Supplemental Nutrition Program for
  of home confinement, followed by 3 years’ probation,      Women, Infants, and Children (WIC) voucher trafficking.
  and ordered to pay full restitution.                      It also led to the indictment of two former WIC clerks for
                                                            conspiracy to steal WIC vouchers. The former clerks,
CED Pleads Guilty in Sexual Harassment of                   who worked for the city of Minneapolis, were stealing
Employee                                                    unclaimed vouchers and selling them at the
                                                            neighborhood grocery store. The owner of the store
In Michigan, a former FSA CED pled guilty to one count      admitted that he bought the vouchers from the WIC
of assault and battery in front of a County Circuit Court   employees. He also purchased electronic food stamp
judge. He was sentenced to a 90-day jail sentence           benefits and stolen baby formula from other individuals.
(which is suspended pending the completion of sexual        During 1 year, food stamp and WIC redemptions
abuse counseling), 1 year of probation, and payment of      exceeded the store’s reported retail food sales by nearly
court costs and fees. The CED sexually harassed a           $200,000. The store owner and manager each pled
subordinate employee by inappropriately touching her        guilty to money laundering. The WIC clerks pled guilty
on at least 31 separate occasions over the course of        to conspiring to steal over $200,000 worth of vouchers
2 days. He also abused his time and attendance. He          from the program. All are awaiting sentencing.




                                                                                                                     7
Workplace Violence Investigations


Murder Charges Lodged in Deaths of                           FS Special Agent and Law Enforcement
Compliance Officers                                          Officer Assaulted

The owner of a San Francisco Bay area sausage                While investigating the origin of a suspicious fire in a
company is in jail awaiting trial on charges that he shot    national forest in Missouri, an FS special agent and a
and killed two Food Safety and Inspection Service            law enforcement officer (LEO) were confronted by a
(FSIS) compliance officers and a California Department       man with a handgun. The man, who owned property
of Food and Agriculture (CDFA) investigator. He is also      near the forest, ignored repeated instructions from the
charged with attempted murder of a second CDFA               FS agent to put the weapon down. Once the man had
employee, an inspector. The four officers were at the        finally placed the weapon on the ground, he ignored
sausage company plant to discuss suspected Federal           further instructions to step away. When he suddenly
and State meat production, labeling, and distribution        and unexpectedly reached for the weapon, the FS agent
violations. The case is being prosecuted jointly under       discharged his own firearm. The property owner was
California State criminal statute by an Alameda County       subsequently charged with assault on a Federal officer
District Attorney with the assistance of an Assistant U.S.   and pled guilty to a misdemeanor offense. He was
Attorney from the Northern District of California. The       sentenced to probation.
San Leandro Police Department, OIG, and the FBI are
conducting the investigation with the assistance of          Four Arrested for Assaulting FS Law
FSIS. The death penalty is being sought by the State         Enforcement Officer
prosecutors.
                                                             Four men were arrested and charged in Federal court
FSIS Compliance Officer Assaulted                            for assaulting an FS LEO who was performing routine
                                                             patrol duties in a New Mexico national forest. The LEO
In Michigan, an FSIS compliance officer was assaulted        approached the four men, who were in a parked vehicle
by the owner of a deer processing and catering               in the forest, drinking alcohol and smoking. The four
establishment after the owner suddenly became                men got out of the vehicle and attacked the LEO,
abusive during an inspection. The compliance officer,        fracturing his skull, breaking his jaw, and causing
not injured in the scuffle, had to end the inspection and    lacerations to his face and head. The men fled the
leave the premises. The owner pled guilty in Federal         scene and were later arrested and charged. The four
court to one count of assaulting a Federal officer and       subjects were denied bail and are awaiting trial. OIG
was sentenced to 2 months’ home confinement,                 assisted the FBI in the investigation.
3 years’ probation, participation in a mental health
treatment program, a $2,500 fine, and a fee of $276 for
electronic monitoring equipment during the home
confinement.




8
Food Safety


                                                           • Pathogen and Residue Testing Program by FSIS
 FOOD SAFETY AND INSPECTION SERVICE
                                                             Laboratories Needs To Be Expanded and Controls
 (FSIS)
                                                             Improved

FSIS administers a comprehensive system of inspection        • There were material control weaknesses:
laws to ensure that meat, poultry, and egg products
moving in interstate and foreign commerce for use as           ■   An incomplete data base precluded many meat
human food are safe, wholesome, and accurately                     and poultry establishments from testing.
labeled. FSIS’ appropriation for FY 2000 totaled
approximately $649 million.                                    ■   FSIS inspectors failed to respond to 24 percent
                                                                   of its Office of Public Health and Science’s
Food Safety Initiative                                             (OPHS) requests for samples to be collected for
                                                                   laboratory testing.
OIG initiated a series of audits to determine whether
FSIS’ meat and poultry inspection program remains            • FSIS’ quality assurance activities over the
effective under the science-based Hazard Analysis and          laboratories need to be strengthened, particularly
Critical Control Point (HACCP) System. We reviewed             with regard to microbiological testing operations.
HACCP, laboratory analyses, foreign imports, and the
compliance program that carried over from the previous       • FSIS generally agreed to correct the cited
system. FSIS has taken positive steps, but more needs          weaknesses through stronger procedures and
to be done in all four areas reviewed. FSIS needs to           controls.
take maximum advantage of the expanding role science
now plays as a control over the meat, poultry, and egg     • FSIS Documentation and Management Controls
products that enter the marketplace. Moreover, FSIS          Over the Import Inspection Program Need To Be
has reduced its oversight short of what is prudent and       Enhanced
necessary for the protection of the consumer.
Highlights of our major findings follow. You can access      • Assurance is lacking that, as required, foreign
the full report on our Web site at www.usda.gov/oig/           countries exporting meat and poultry to the United
auditrpt/full_fsis.pdf.                                        States maintain inspection systems equivalent to
                                                               the U.S. inspection system.
• HACCP Verification and Oversight Should Be
  Strengthened                                               • FSIS did not adequately support its determinations
                                                               that foreign countries importing meat and poultry
  • FSIS must more aggressively assert its authorities         products to the United States were eligible to do
    under the program and in the plants’ testing               so.
    programs.
                                                             • We made recommendations for imported meat
  • FSIS concurred that it should:                             and poultry products leading to improvements in
                                                               terms of:
     ■   Strengthen controls to provide greater
         verification of and oversight over HACCP              ■   Safety;
         implementation, pathogen testing, and
         independent reviews of plant and inspection           ■   formal procedures; and
         activities;
                                                               ■   residue test plans, results, and certifications.
     ■   expand language contained in its grant of
         inspection agreement to define FSIS oversight       • We also recommended that equivalency
         responsibilities; and                                 determinations:

     ■   set out the requirements of the establishments,       ■   Involve technical subject matter experts,
         including access to records regarding the
         plants’ operations.

                                                                                                                      9
       ■   are adequately documented and supported, and        The president of the plant also pled guilty to failure to
                                                               maintain accurate records, as required by Federal
       ■   require onsite verification reviews before the      HACCP regulations. The two corporate officials and the
           granting of equivalency status.                     corporation were each sentenced to 3 years’ probation,
                                                               each officer was fined $10,000, and the corporation was
     • FSIS generally agreed but is still developing           fined $90,000. Employees of the plant were adding soy
       corrective action to address the identified             to ground beef as an extender to maximize profits,
       weaknesses in its control systems and oversight of      creating serious health concerns for persons who are
       import operations.                                      allergic to soy. The ground beef product was distributed
                                                               to hospitals, nursing homes, restaurants, and hotels.
• FSIS Needs To Enhance Its Efforts To Improve Food            Further investigation showed the plant was also
  Safety Compliance                                            distributing ungraded meat as “choice.” OIG was
                                                               assisted by FSIS compliance officers.
     • FSIS needs to enhance its existing compliance
       review plan to ensure industry compliance with          Poultry Plant Employee Pleads Guilty to Product
       law.                                                    Tampering

     • Compliance officers need to be more consistent in       A poultry processing plant employee in Mississippi pled
       reviews and thorough in documenting results and         guilty in Federal court to product tampering. The
       reporting violations.                                   employee admitted throwing a bottle of black ink into a
                                                               prechiller, contaminating 3,742 pounds of poultry. The
     • FSIS does not have an effective system to               motivation for this act was to shut the plant down,
       accurately track the number, status, and                allowing employees to go home. Sentencing is
       disposition of consumer complaints.                     pending.

     • FSIS enforcement actions consist only of a letter       Texas Corporation Pleads Guilty to Adulteration of
       of warning, not fines.                                  Meat and Poultry Products

     • FSIS agreed with our recommendations                    A corporation in Brownsville, Texas, has pled guilty to a
       concerning the noted weaknesses, has initiated          Federal indictment for the sale of adulterated meat and
       corrective actions, and continues to seek the           poultry products. The corporation sold and shipped
       authority to levy fines.                                rodent- and maggot-contaminated meat and poultry
                                                               products to several retail outlets in Texas. The
Meat Processor, President, and Production Manager              corporation has agreed to pay a $125,000 fine.
Plead Guilty to Felonies

After an investigation by OIG, a Miami meat processor
and two of its corporate officials pled guilty to conspiring
to adulterate and misbrand meat at a plant in Miami.




10
Natural Resources and Environment


 FOREST SERVICE (FS)                                          Our most recent audit disclosed a pattern similar to
                                                              practices described in an August 1998 audit report. FS
                                                              staff let the private parties control many aspects of the
FS has the responsibility for providing leadership in the     exchanges. Consequently, the developers, the
protection, management, and use of the Nation’s forest,       landowners, and their advocates tried to maximize their
grassland, and aquatic ecosystems on public and               acquisitions in Las Vegas by overvaluing their own land
private lands. The FY 2000 budget for FS is projected         to ensure the “equal” piece of Las Vegas property they
at $3.5 billion, while receipts generated through timber      received was of greater worth.
sales and other activities are estimated at about
$796 million.                                                 • In the Deer Creek exchange, FS staff on the
                                                                Humboldt-Toiyabe National Forest let an advocate
Public’s Interests Not Always Protected During FS               for the landowner override FS safeguards against
Land Exchanges                                                  excessive valuations, resulting in a $5.9 million loss
                                                                to the Government.
Over the past several years, OIG has audited a number
of land exchanges conducted by FS in the Western              • In the Mt. Rose exchange, FS staff on the Humboldt-
States. This reporting period, we completed our final           Toiyabe allowed a private party to “presell” FS land
analysis of the Zephyr Cove Land Exchange at Lake               worth $6.5 million to private investors with FS to
Tahoe, which disclosed serious flaws in FS’                     receive other unspecified lands at some future date.
administration of the land exchange program, as had
been indicated in a 1998 interim report.                      • In the Galena Resort exchange on the Humboldt-
                                                                Toiyabe, FS paid the landowner $2.1 million for water
The $38 million exchange failed to obtain clear title to a      rights it did not plan to use. The landowner had
unique lakeshore property, now fenced off, restricting          acquired the water rights for the property being
public access. The $38 million cost to the Government           exchanged with FS but did not inform FS that the
potentially is double the land’s actual value. We               rights would lapse if not used.
concluded that the Zephyr Cove land exchange was
seriously compromised by the inadequate actions of the        In some cases, landowners would give FS land
FS regional office and the local FS personnel working         encumbered with deed reservations, encroachments, or
the exchange. Also, as a result of the sale of the            maintenance problems in exchange for the
mansion at Zephyr Cove, a third party threatened              unencumbered Las Vegas property. However, one
litigation if FS did not issue it a special-use permit at a   exchange—the Thunderbird Lodge at Lake Tahoe,
low rate to operate a concession in the mansion and           reported previously—demonstrated the value of OIG
develop the land around it.                                   intervention. FS would have accepted a deed that did
                                                              not clear the Government of liability for an aging
                                                              structure that it could not afford to maintain. As a result
                                                              of our recommendations, FS added terms to the deed
                                                              that required the landowner to furnish a 10-year,
                                                              $2.3 million performance bond to guarantee that the
                                                              current owners of the lodge maintain it.

                                                              Based on recommendations we have made in the
                                                              issued reports, FS has agreed to implement additional
                                                              controls over the land exchange process. Future
                                                              reviews will evaluate the adequacy of these new
                                                              controls.



View of the mansion at Zephyr Cove. OIG Photo.




                                                                                                                       11
Weaknesses Found in the Financial Disclosure
Reporting Systems at FS

The financial disclosure reporting system helps
employees avoid conflict-of-interest situations and is
increasingly important as FS expands the use of
collaborative ventures and partnerships with non-
Federal entities (currently running in the hundreds of
millions of dollars annually). FS units were not updating
their system to identify and track employees designated
to file confidential financial disclosure reports. We
identified 272 designated filers (contract specialists,
realty specialists, etc.) not included in the system and
tracked by FS, as well as 476 LEO’s and criminal
investigators, whose duties fell within the general
description in the act.

Controls to ensure that designated filers actually filed
their financial disclosure reports on time were also
inadequate, and the reports were not thoroughly
reviewed. Four FS employees were able to conceal
their interests in non-Federal entities and either grant
favors to those entities or potentially receive favors from
them. Two other employees who disclosed their
interests had made decisions favorable to those
interests, but ethics officials had not adequately
reviewed the disclosure forms to identify and take action
to prevent the conflict situation from arising.

We recommended that FS require all LEO’s and
criminal investigators to file financial disclosure reports
and establish procedures to periodically review and
update its tracking system, and that FS ethics officials
adequately follow up on the nature and extent of outside
employment/activities reported.




12
Farm and Foreign Agricultural Services


 FARM SERVICE AGENCY (FSA)                                  • Further, we questioned about $8.8 million in CLDAP
                                                              payments that were issued to producers who were
                                                              ineligible for crop insurance.
FSA supports American farmers, and ultimately
consumers, through commodity and disaster programs,         • As a result of the audit, OIG investigated two
loans, conservation, and food assistance. The FY 2000         producers and one crop insurance agent for apparent
budget is estimated at over $7 billion in funds available     misrepresentations on their disaster and/or crop
directly to FSA. The Commodity Credit Corporation             insurance claims.
(CCC), a Government corporation, funds all other
program operations at an estimated $32 billion.             Overall, some procedural changes were needed.

Upfront Review of CLDAP Delivery to Producers               • CLDAP neither prohibited payments in excess of
Forestalls Improper Payments                                  producers’ expected gross crop revenues (as did
                                                              prior disaster programs) nor required adjustment of
OIG places a high priority on reviewing programs early        payments based on known inflated crop insurance
on to forestall potentially massive problems. OIG teams       indemnities.
frequently assist agency personnel in an assortment of
programs intended to benefit farmers and help them          • The CLDAP contract did not include a liquidated
recover from natural disasters. We move quickly to            damage clause for noncompliance with crop
identify weaknesses and set a direction for effectively       insurance linkage provisions.
disbursing benefits to those entitled, while
recommending controls to identify wrongdoers and            FSA generally agreed to collect cited overpayments and
institute measures of deterrence. Work we do at one         direct compliance reviews toward areas where most
location often has implications for a much wider area.      program errors occurred. FSA also agreed to grant
In a prime example, we reviewed the Crop Loss               FSA county committees authority to correct erroneous
Disaster Assistance Program (CLDAP), for the 1998           RMA data when RMA acknowledged such errors in
crop or for the 1994 to 1998 (multiyear) crops, in          writing. However, unlike OIG, FSA believed that
cooperation with FSA and the Risk Management                sufficient safeguards were in place to limit future
Agency (RMA).                                               disaster program payments to producers’ expected
                                                            gross returns. FSA and RMA agreed to jointly develop
We identified improper payments on about 6.5 percent        and implement a plan to improve compliance with crop
of the more than 1,800 applications we reviewed in          linkage requirements. RMA agreed to determine
40 county FSA offices in 14 States.                         whether cited producers misrepresented their 1998 crop
                                                            production to increase their crop insurance indemnities,
• Through our interim notification of program               and recover any overpayments.
  deficiencies, FSA was able to preclude issuance of
  nearly $458,000 in overpayments and correct about         Early Work Enhances Program Controls for LDP
  $40,000 in underpayments before payments were             Program
  disbursed.
                                                            OIG performed early work to identify what could be
• We found that producers did not accurately report         used to improve another large-dollar program. The
  qualifying data (such as acreage, production, and         Federal Agriculture Improvement and Reform (FAIR)
  crop shares) and that county offices made technical       Act of 1996 mandated a Loan Deficiency Payment
  errors, resulting in overpayments of about                (LDP) program on 16 different commodities for the
  $1.1 million and in underpayments totaling                1996 through 2002 crop years. LDP’s were intended to
  about $66,000.                                            minimize the delivery of price support loan collateral to
                                                            CCC by paying producers the difference between the
• We also identified about $150,000 in excessive RMA        established price support loan rate and the settlement
  crop insurance indemnities and $2,400 in excessive        prices received by producers. LDP activity exploded
  (FSA) loan deficiency payments resulting from             into a $2.7 billion program for the 1998 crop year. (LDP
  problems identified during the audit.                     activity prior to 1998 was minimal because market
                                                            prices were generally higher than loan rates.)

                                                                                                                    13
We found that county average (benchmark) yields                where the grain is covered by sales or delayed pricing
established by some FSA county committees hindered             contracts that specify the loss of title at the time of
reasonableness tests. Specifically, when yields claimed        delivery. We also recommended recovery of the
for LDP benefits appeared to exceed county average             monetary amounts cited in the report, as well as any
yields, the committees were to determine the                   other applicable 1998 LDP amounts disbursed to
reasonableness of the claimed yields. However, county          producers with similar contracts, and FSA has begun
average yields were established inconsistently and/or          recovery.
did not always reflect actual crop yields, which, coupled
with the absence of formal second-party reviews,               OIG Confirms Suspicions, Finds Duplicated Claims
contributed to the disbursement of about $300,000 in           and Overstated Losses
error to producers.
                                                               Oklahoma State FSA officials called on OIG’s expertise
FSA generally concurred with our findings and                  to look at a questionable situation in one Oklahoma
recommendations to provide additional guidance and             county. We responded to their requests, performed a
direction over the establishment of county average             thorough review, and came up with significant findings.
yields, develop and implement an automated
reasonableness test, and scrutinize questionable               We initiated an audit to determine whether (as indicated
requests.                                                      by internal FSA reviews) producers improperly claimed
                                                               disaster benefits and an FSA employee improperly
OIG Responds to Request, Finds Beneficial Interest             made and/or serviced loans to family members. We
Requirements Not Met                                           reviewed 11 producers’ disaster claims for hay and/or
                                                               pasture losses in 1998 and 1999.
Program officials sometimes capitalize on our expertise
by asking us to look at questionable situations. We            • In nine cases, producers had inaccurately self-
often root out irregularities or provide guidance to clarify     certified their disaster losses.
policies or enhance the efficiency and effectiveness of
procedures. In one instance, we performed an audit at          • In seven cases, the producers improperly claimed
the request of North Dakota State FSA officials to               duplicate losses under the 1998 CLDAP and
determine whether producers in a county met beneficial           Livestock Assistance Program (LAP) and were
interest requirements for 1998 LDP’s. Producers must             overpaid almost $162,000.
have control of and title to a commodity, and risk of loss,
at the time LDP benefits are requested.                        • In five cases, the producers inaccurately reported
                                                                 disaster acreage, types of pasture losses, and/or
We reviewed 5 producers at each of 3 warehouses (to              livestock on hand during the grazing period and were
which a total of 652 county producers delivered                  ineligible for 1998 and/or 1999 disaster benefits
commodities claimed for LDP benefits).                           totaling almost $43,000.

• Four producers delivered grain to two warehouses             • An employee was involved in completing overstated
  under delayed pricing contracts (did not meet the              disaster claims for two of the producers, who were
  beneficial interest requirements of the program),              close relatives of the employee. The employee
  were ineligible for LDP’s totaling about $22,000, and          altered dates on the producers’ livestock sales
  are subject to liquidated damages totaling about               documents (used to determine livestock on hand)
  $5,400.                                                        and provided FSA with overstated disaster acreage
                                                                 information and incorrect descriptions of pasture
• One of the warehouses provided misleading                      cover. This matter was referred for investigation
  documentation to producers which showed grain                  because of the FSA employee’s involvement.
  claimed for LDP benefits was in open storage when,
  in fact, it had been applied to existing sales contracts.    Nothing came to our attention to indicate the employee
                                                               made and/or serviced loans to family members, but
We recommended that FSA notify producers of the                there was an appearance of a conflict of interest
need to request LDP benefits prior to delivery in cases        between the employee and a farm loan borrower, who



14
was both the employee’s close relative and a business            • In summary, the corporation, which was also the joint
associate of the employee’s spouse. The employee                   venture’s landowner, provided all the major
and borrower gave FSA required notice of their                     investments and assumed the risk for the outcome of
relationship and association, but FSA procedure did not            the joint venture’s operation.
require the borrower’s loan file to be assigned to
another county office.                                           We concluded the producers used a scheme or device
                                                                 to evade payment limitation provisions, and
We recommended, and FSA agreed, to collect the                   recommended FSA recover $451,000 in program
questioned payments and review remaining applications            payments made to the joint venture and corporation for
in the county for duplicate benefits under CLDAP and             1997 through 1999. (Program payments for 1999 are
LAP. Based on the outcome of the investigation, FSA              subject to refund if the agency determines the
will consider whether the employee’s conduct (with               producers used a scheme or device for 1997 and 1998.)
regard to completion of the overstated disaster claims           Oklahoma State FSA officials agreed to make
for two producers) warrants action. FSA also decided to          determinations based on information provided in the
transfer the borrower’s loan to another county for               audit and to notify the producers of the repayment
servicing.                                                       required.

Active Response Finds Payment Limitation Rules                   OIG Helps in Correcting SAA Data Base To
Violated in Oklahoma                                             Recapture Debt

Some programs, by their nature, lend themselves to               OIG reviewed shared appreciation agreements (SAA) to
continuing problems at the hands of individuals                  assist FSA in getting better control over pertinent data
attempting to circumvent the law. We step in quickly at          and the associated recapture of certain Government
the first report of such irregularities. Our overall intent is   debt. FSA implemented SAA’s in 1989 to recapture part
to ensure that farmers throughout the country are                of the Government debt written down for Farm Loan
adhering to established policies and following correct           Program borrowers. A percentage of shared
procedures. At the request of the Oklahoma State FSA             appreciation is due if the market value of the secured
Committee, we audited farming operations in an                   property has risen during the term of the agreement.
Oklahoma county to determine if producers violated               Borrowers may request partial or complete suspension
Agricultural Market Transition Act (AMTA) payment                of repayment annually up to three times.
limitation provisions.
                                                                 The March 2000 SAA data base maintained by FSA
We found that an individual operating as a corporation           showed that about 11,900 SAA’s had been executed on
used two corporate employees to establish a joint                debt writedowns of over $1.7 billion.
venture, which participated in AMTA as a separate
producer in 1997 and 1998. However, our reviews of               • The data base comprised 9,260 SAA’s on real estate
the joint venture’s and corporation’s financial records            debt writedowns, totaling $1.2 billion, and
showed the joint venture’s operation was not separate
and distinct from that of the corporation.                       • over 2,600 agreements in writedowns for non-real
                                                                   estate loans (chattel). However, SAA’s do not apply
• The corporation provided the joint venture’s 1997 and            to non-real estate loans.
  1998 capital, land, equipment, and operating
  expenses.                                                      Also, when a borrower’s shared appreciation due was
                                                                 approved for suspension, the information was tracked
• The joint venture did not maintain funds and                   manually, because suspended SAA’s are not identified
  accounts separate from the corporation. Other than             as such in the data base. As of May 2000, over 1,000
  a handwritten summary of revenue and expenses for              suspended SAA’s totaled about $45.5 million. In
  1997 and 1998, the joint venture did not maintain any          addition, although 272 SAA’s showed no appreciation,
  records relating to expenses for equipment, notes,             the data showed recapture amounts totaling over
  land lease payments, and other farming expenses.               $5 million because of incorrect data entry for the market
                                                                 values.



                                                                                                                        15
All told, we reviewed 258 SAA’s in 3 States, noted            mortgaged property. The defendant, who had
discrepancies in the data for 29, and concluded that the      previously received two FSA operating loans to
SAA data base contained significant erroneous data            purchase cattle, mortgaged the cattle to FSA. Before
that could adversely affect management information.           receiving the loans, the defendant presented false
                                                              receipts to FSA regarding cattle purchases. The
FSA agreed to:                                                defendant also sold mortgaged cattle in other names
                                                              and did not report the sales proceeds to FSA.
• Correct the erroneous information in the data base,
                                                             RISK MANAGEMENT AGENCY (RMA)
• implement control procedures to better ensure the
  accuracy of the data, and
                                                            RMA administers the Federal Crop Insurance
• remind all State and county office staffs that net sale   Corporation (FCIC) and oversees all programs
  proceeds are to be applied first to the SAA and then      authorized under the Federal Crop Insurance Act. FCIC
  to the outstanding debt.                                  is a wholly owned Government corporation that offers
                                                            subsidized multiple-peril and revenue crop insurance
OIG Curtails Criminal Violations That Hurt People,          through a private delivery system by means of reinsured
Programs                                                    companies. RMA’s FY 2001 Government cost, net of
                                                            producer-paid premiums of $968 million, is estimated at
OIG brought to bear law enforcement efforts to counter      $2.2 billion.
criminal violations and create a presence leading to
deterrence. One multimillion-dollar case affected more      Proactive Evaluation of Crop Insurance Programs,
than a hundred cotton farmers. Two other cases              Regulations, and Policies
produced sizable restitution and a prison sentence.
                                                            As a part of a proactive approach and increased
• The owner of cotton warehouses in Georgia and             coordination and communication with RMA that resulted
  South Carolina was sentenced to serve 35 months in        from our joint agency roundtable, we devoted a large
  Federal prison for his scheme to defraud                  portion of our resources during this reporting period to
  approximately 140 cotton farmers out of their cotton      several key areas.
  and sales proceeds worth more than $9 million, as
  detailed last period. The defendant pled guilty to 32     • Workgroups: The three workgroups covered E-
  felony counts involving mail fraud, wire fraud, and         Commerce, Written Agreements, and Manual
  money laundering. The defendant was ordered to              14—Guidelines and Expectations for Delivery of the
  pay restitution of over $4 million, serve 3 years on        Federal Crop Insurance Program. We expended
  probation after release from prison, and complete           most of our efforts with the latter workgroup. Manual
  200 hours of community service.                             14 outlines the program review and reporting
                                                              requirements for the reinsured companies, including
• As previously reported, two Texas businessmen pled          RMA’s quality control (QC) system in which our
  guilty in Federal court to conspiracy to submit false       audits had reported major weaknesses. All three
  feed receipts under the Emergency Feed Program.             workgroups are struggling with various issues, and
  Payments of about $172,000 were made based on               we are continuing with our efforts and input.
  the false receipts submitted. One man was
  sentenced to prison for 18 months and ordered to          • Quality Control System: We have monitored RMA’s
  make restitution of $90,000. The other was placed           continuing implementation of a QC system that will
  on 5 years’ probation and ordered to make restitution       provide RMA and FCIC an accurate and meaningful
  of $12,000.                                                 error rate for the Federal crop insurance program.
                                                              Such an error rate—a potential indicator of program
• An Alabama farmer was sentenced to pay over                 abuse and errors—has been a point of contention
  $90,000 in restitution and serve 6 months’ home             and concern for both OIG and RMA for a number of
  confinement and 5 years’ probation after pleading           years. Furthermore, such an error rate would also
  guilty to three counts of unauthorized sale of              provide an effective tool to evaluate RMA’s program



16
  management. Also, the Agricultural Risk Protection
  Act (ARPA) of 2000 seems to indicate a desire for          Bean Company President Causes False Crop
  this information for Congress.                             Insurance Claims

  RMA has proposed to accomplish this goal under its         In July, the president of a Wisconsin bean processing
  Compliance Crop Insurance Contract Reviews, which          company agreed to pay $139,300 as a civil settlement
  are conducted by the reinsurance companies. This is        for causing false Multi-Peril Crop Insurance (MPCI)
  intended to be a statistically valid sample, with the      claims. In 1995, most of Minnesota’s dry edible bean
  results of each insurance provider supplied to FCIC        crop sprouted in the pod prior to harvest because of
  in an Annual Summary Report. RMA compliance                excessive rainfall during the growing season. The
  staff has completed its review of the reinsurance          processing company falsely substantiated to MPCI
  companies’ Compliance Crop Insurance Contract              adjusters that sprout-damaged beans were worth only
  Reviews for the 1998 crop year. However, RMA’s             salvage value. The producers made MPCI claims and
  review did not result in a projectable error rate due to   received indemnity payments, and at the same time
  inadequacies in the methodology and inadequacies           received full market price for the damaged beans from
  or errors in the companies’ reviews. We have had a         the processor.
  number of meetings with RMA’s Compliance and
  Insurance Services staff to review its plan and            Two Found Guilty of Bankruptcy Fraud
  provided our comments. RMA has requested further
  assistance in monitoring and evaluating its QC             In Minnesota, a husband and wife were found guilty of
  system; however, we have declined further joint            46 felony counts that included conspiracy, bankruptcy
  efforts until RMA has developed a formal plan of           fraud, mail fraud, wire fraud, and false statements to
  action.                                                    obtain USDA program payments. The couple created
                                                             and operated two farming corporations, and elicited the
• ARPA Implementation: We are currently working              assistance of an elderly neighbor as the “straw”
  closely with RMA and FSA in their implementation of        president and sole shareholder of one of the
  ARPA legislation. We have attended implementation          corporations. From 1990 through 1999, the couple
  meetings, provided comments when applicable, and           illegally obtained over $250,000 in FSA program
  reviewed and provided comments on any regulations          payments, $240,000 in CCC-stored loans, and
  as they were being drafted. Our primary role in this       $450,000 in MPCI indemnity payments as a result of
  project is to assist both RMA and FSA to improve the       their hidden interests in the two corporations and the
  QC system to assess maximum program integrity.             unlawful planting of a converted wetland. During the
  Through this effort, we expect the policies that are       course of their subsequent bankruptcy proceedings,
  implemented will decrease the recurrence of the            they hid their interests and assets in the two
  types of program abuses we have identified in the          corporations, thereby reducing their debt from
  past.                                                      approximately $1.9 million to $300,000.
                                                             Sentencing is pending.
30 Subjects Agree To Pay $1.9 Million in Crop
Insurance Case                                               Crop Insurance Agent Pleads Guilty to Fraud

Following an investigation in Minnesota conducted            A crop insurance agent in Clarksville, Texas, pled guilty
jointly with the Compliance Branch of RMA,                   to filing false reports regarding the identity of the
11 insurance companies, 12 grain elevator companies,         insured. She agreed to pay restitution of $591,800 and
and 7 individuals agreed to pay nearly $1.9 million to       voluntarily withdraw from all USDA programs, including
settle civil False Claim Act cases. In 1993, these           the sale of crop insurance. This investigation involved
entities conspired to improperly shift to FCIC the           multiple co-conspirators who were on the Nonstandard
charges that grain elevators assessed to farmers in          Classification System (NCS) list and had their crop
southern Minnesota and northern Iowa to dry high-            insurance entity changed during the period from crop
moisture corn. The conspiracy resulted in over 450           year 1993 through crop year 1997. The crop insurance
false claims being submitted.                                agent admitted using her daughter’s name, as well as
                                                             other individuals’ names, on crops in order to avoid the
                                                             NCS listing. Sentencing is pending.

                                                                                                                    17
 FOREIGN AGRICULTURAL SERVICE (FAS)


FAS represents the interest of U.S. farmers and the
food and agricultural sector abroad. Most notably, it
seeks improved market access for U.S. products,
carries out food aid and market-related technical
assistance programs, and mobilizes expertise for
agriculturally led economic growth in developing
nations.

Most of $980,000 Stolen From Russian Bank
Account of PVO Recovered

FAS and a U.S. Private Voluntary Organization (PVO)
signed an agreement to provide for 2,500 metric tons of
butter and 2,500 metric tons of butter oil, to be donated
by CCC, for assistance in the Russian Federation. The
agreement provided for half of the proceeds to be used
for humanitarian projects, with the other half designated
for investment in small and medium-sized Russian
agribusinesses. In December 1998, $980,000 was
fraudulently wire-transferred from the account of the
PVO, through three U.S. banks, to a bank in Riga,
Latvia, where the funds were immediately withdrawn.
To date, $966,000, or 98.6 percent of the stolen funds,
has been recovered and returned to the PVO.
However, no recovered funds have been returned to
USDA for use in other U.S. food aid programs. This
investigation was conducted jointly with the FBI.




18
Food, Nutrition, and Consumer Services


 FOOD AND NUTRITION SERVICE (FNS)                              • The Dakotas—North Dakota and South Dakota have
                                                                 a joint EBT system contract known as the Dakota
                                                                 EBT system. Both State agencies needed to
FNS administers the Department’s food assistance                 improve controls in some areas to strengthen EBT
programs, which include the Food Stamp Program                   administration and reduce the risk to FSP funds from
(FSP); the Child Nutrition Programs (CNP); the Special           waste, loss, unauthorized use, and misappropriation.
Supplemental Nutrition Program for Women, Infants,               We recommended that FNS require North Dakota to
and Children (WIC); and the Food Donation Programs.              establish and implement written procedures for
FNS’ funding for FY 2000 is $34 billion. Three FNS               monitoring logon ID’s, and require both North Dakota
programs receive the bulk of this funding: FSP                   and South Dakota to review user access permission
($19.8 billion), CNP ($9.8 billion), and WIC ($4.1 billion).     on a periodic basis and cancel logon ID’s as
                                                                 appropriate.
 FOOD STAMP PROGRAM
                                                               • Florida—The State agency did not have sufficient
                                                                 control over system access ID’s. In addition, the
Operation Talon Arrests Continue To Climb                        State agency did not (1) use expungement reports
                                                                 generated by the EBT system to identify accounts
Operation Talon was designed and implemented by                  that became inactive or dormant, (2) maintain a
OIG to locate and apprehend fugitives, many of them              separation of duties between personnel who
violent offenders, who are current or former food stamp          authorized replacement of expunged benefits and
recipients. As of September 30, 2000, Operation Talon            those who reactivated the benefits in the EBT
had resulted in 6,733 arrests of fugitive felons during          system, and (3) document expunged benefit
joint OIG, State, and local law enforcement operations           restoration transactions properly. These conditions
throughout the country. Serious crimes perpetrated by            could result in denial to recipients of timely access to
those arrested included homicide-related offenses                their food stamp benefits or permanent loss of
(murder, attempted murder, manslaughter), sex                    benefits, misuse of benefits by ineligible individuals,
offenses (child molestation, rape, attempted rape),              and payment of excessive fees to the EBT processor.
kidnapping/abduction, assault, robbery, and drug/                We made a series of recommendations to improve
narcotics violations.                                            controls over system access ID’s and inactive and
                                                                 dormant accounts.
Monitoring of Electronic Benefits Transfer (EBT)
System Continues                                               During our review of the EBT development and
                                                               implementation in each of these States, we also noted
Currently, 41 States and the District of Columbia use          concerns over the need to include required monitoring
EBT systems to deliver food stamp benefits. Thirty-            visits for group living arrangements, as well as
seven of the systems have been implemented                     improvements in other related controls involving the
statewide, including the District of Columbia. About           participation of group homes. While the weakness is
74 percent of all FSP benefits are being issued via EBT.       not an EBT weakness, we believe that it requires
During this semiannual period, we completed EBT                attention in each of the States.
systems audit work in Utah, North Dakota, South
Dakota, and Florida. The EBT systems were                      Food Stamp Fraud Spawns Violent Criminals,
successfully implemented in all four States; however,          Associated Activities
controls needed to be strengthened in some areas.
                                                               Increasingly, OIG has been encountering cases of food
• Utah—We recommended that FNS require the State               stamp fraud which extend into other, more violent areas
  to (1) develop procedures to improve the security and        of criminal enterprise. While the advent of EBT has
  accountability over EBT cards returned through the           provided additional means to uncover illegal activities,
  mail as undeliverable and (2) establish and                  often the fraud is massive, the perpetrators violent and
  implement written procedures for monitoring logon            involved in more threatening pursuits directed against
  identifiers (ID), reviewing user access permission           people, and the criminal organizations large. Three
  periodically, and canceling logon ID’s no longer             such examples involved kidnapping, large-scale criminal
  authorized.

                                                                                                                      19
conspiracy, narcotics violations, and street crime, as            approximately 50 foreign nationals from Pakistan,
well as widespread food stamp trafficking.                        INS marriage fraud, and visa fraud. During a joint
                                                                  arrest and search warrant operation, 36 of the
• A large food stamp trafficking and money laundering             38 indicted and 1 unindicted individual were arrested.
  case involved an individual also implicated in a                In addition, 10 individuals were detained for INS
  kidnapping. As reported previously, a 4-year                    violations. All but five individuals have signed plea
  investigation in Philadelphia, Pennsylvania,                    agreements. Charges were dropped against one
  uncovered an elaborate scheme involving $15 million             individual. Two subjects have fled the country and
  of food stamp trafficking and money laundering                  are fugitives. All individuals who participated in the
  through six bogus grocery stores. Owners of two                 marriage fraud scheme have been deported. The
  wholesale businesses and owners and employees of                investigation is continuing.
  numerous Chinese takeout restaurants were indicted
  in the scheme. To date, two owners of one food                • An employee at a local tavern with a history of
  wholesaler and six owners of the six grocery stores             narcotics violations and other vice crimes, who
  have been indicted on Federal money laundering and              exchanged cocaine for food stamps, was implicated
  food stamp trafficking charges. Four of the grocery             in an investigation along with 17 others. Twelve
  store owners have pled guilty and been sentenced.               already have been convicted for trafficking in food
                                                                  stamps after a joint investigation with the Seattle
     This reporting period, the co-owner of one grocery           Police Department, the Washington Department of
     store received two concurrent 6-year sentences for           Revenue, the Washington Liquor Control Board, and
     money laundering $1.3 million. This defendant also           the FBI. Street traffickers purchased over $269,000
     pled guilty in a separate case to one charge of              in food stamps from undercover officers and sold
     kidnapping for his role in the abduction and detention       them to FNS-authorized retailers in the Seattle area.
     of a Chinese female in New York City, holding her            Warrants served on subjects’ bank accounts resulted
     against her will until a smuggling fee to gain entrance      in the seizure of over $120,000. Several local bars
     into the United States was paid by her relatives.            and taverns also were closed down for Liquor Control
                                                                  Board violations. This investigation was initiated at
     In addition, a complaint for forfeiture was filed and an     the request of the King County Executive and a
     arrest warrant was served on a residence purchased           member of the Washington House of Repre-
     by an indicted owner of one of the grocery stores.           sentatives after they had received numerous
     The owner had purchased the residence, valued at             complaints from citizens and business owners about
     $65,000, for his girlfriend (now wife) with funds            rampant food stamp trafficking in downtown Seattle
     derived from the trafficking of food stamps. An              and the street crime associated with it.
     additional $175,000 in seized cash is pending final
     disposition. This investigation was worked jointly         Retailers Sentenced to Prison in Massive Food
     with the U.S. Secret Service. The investigation is         Stamp Fraud Conspiracy
     continuing with additional charges expected.
                                                                A bookkeeper and two retail firm owners in Los Angeles
• In another case, food stamp trafficking financed              have pled guilty to various tax and/or food stamp fraud
  further crime. In Rochester, New York, 36 individuals         charges following an investigation ongoing since 1995.
  were indicted and arrested on food stamp trafficking          One of the retailers was sentenced to 27 months in
  and Immigration and Naturalization Service (INS)              prison, 3 years’ supervised release, and $3 million in
  charges. Our joint investigation with INS uncovered           restitution; while the second retailer was sentenced to
  a complex criminal conspiracy. Food stamps were               9 months in prison, 1 month of home detention, 3 years’
  discounted—and exchanged for cash and a vehicle—              probation, and restitution of $4.1 million.
  with the owners or employees of three authorized
  stores. The food stamps were laundered through                In 1995, we began an investigation of 12 FNS-
  approximately 20 other authorized grocery stores in           authorized retailers in the Los Angeles metropolitan
  the Rochester area. The proceeds from the food                area that were identified as having redeemed unusually
  stamp trafficking conspiracy facilitated other criminal       large quantities of food stamps. We linked several of
  activity, including the smuggling and illegal entry of        those retailers, as well as more than 100 other FNS



20
authorized retailers, to the same bookkeeper, who was           investigation, permanently disqualified the former
furnishing contradictory information to FNS on the              store owner from participation in FSP. IRS agents
behalf of many of them on application forms. We                 and Baltimore City police officers also assisted OIG.
served a search warrant on the bookkeeper’s office in
April 1997. Records seized there substantiated that he        • Two owners of a store in Atlanta have pled guilty to
was inflating the authorized retailers’ gross food sales in     food stamp and EBT trafficking charges and have
documents submitted to FNS in order to avoid detection          been sentenced to serve 18 months in prison,
of the retailers’ high redemption of food stamps, while at      followed by 3 years’ supervised release, as well as
the same time understating the client retailers’ gross          pay restitution of $278,000. The pleas came after an
sales to the California Board of Equalization and the           11-month investigation, during which OIG made
IRS. We suspect that illegally obtained food stamp              several undercover transactions with the owners and
coupons worth in excess of $50 million were redeemed            also monitored the store’s cash register terminal for
from 1994 to 1997 by the 24 firms targeted for                  EBT activity. Recipients who appeared to have sold
investigation following the review of records seized from       their benefits were identified and interviewed.
the bookkeeper. The IRS and INS joined our                      Several recipients admitted to selling benefits for
investigation in 1998.                                          cash at the store. In addition, a few recipients
                                                                reported handing their EBT cards and personal
EBT Plays Large Role in Food Stamp Trafficking                  identification numbers to a street merchant, who then
Cases                                                           contacted the store using a cellular telephone. The
                                                                store owners used the information provided by the
As noted above, EBT investigations are playing an ever-         street merchant over the telephone to conduct
greater role in our law enforcement efforts to counter          manual transactions to remove benefits from the
criminal violations in the food stamp area. Here are            recipients’ EBT accounts. Several recipients had
three representative cases.                                     their cases heard before an administrative law judge
                                                                in a program violation hearing. All the cases were
• As previously reported, the husband and wife owners           upheld, and each recipient was disqualified from FSP
  of a medium-sized grocery store in Baltimore City,            for 1 year.
  Maryland, pled guilty in Federal court to access
  device fraud, via the EBT system. They have now             Grocer and Silent Partner Charged in $7 Million
  been ordered to make restitution of $500,000 each,          Food Stamp Fraud Scheme
  to total $1 million. The husband was also sentenced
  to 21 months in jail, followed by 3 years of supervised     A Chicago grocery store owner and his silent partner
  probation. The wife has been sentenced to 5 months          were charged and pled guilty to an indictment involving
  in jail, followed by 3 years of supervised probation.       conspiracy and aiding and abetting in a $7 million food
  While this store was under investigation by OIG, it         stamp fraud scheme that occurred from 1992 to 1996.
  was the largest redeemer of food stamp benefits in          The individuals used the money to purchase three
  Maryland.                                                   apartment buildings and a luxury automobile that the
                                                              defendants have agreed to turn over through forfeiture.
• An anonymous Hotline complaint set off a 2-year             This case was worked jointly with the IRS.
  investigation by OIG into fraud by the owner of a
  small Baltimore market. The market owner                    Texas Retailer Forfeits Property
  conducted all EBT trafficking transactions personally
  and only through a known “runner,” or trusted go-           As a result of a criminal investigation for food stamp
  between who for a small fee obtains EBT cards from          trafficking, the owner of a Texas authorized retailer was
  recipients and insulates the store owner. OIG agents        convicted in State court. Further financial analysis
  were able to secure the services of a runner, who           showed over $400,000 in fraudulent food stamp
  then trafficked EBT benefits monitored by OIG. The          deposits. This resulted in a civil forfeiture action being
  owner was sentenced to 18 months in prison and              filed in Federal court. The Federal judge ordered that
  3 years of supervised probation. In addition, she was       three pieces of property, which included the store itself,
  ordered to pay $478,000 in restitution. FNS, which          be forfeited to the Government. The property is
  provided extensive assistance during the                    appraised at $500,000.



                                                                                                                      21
 CHILD NUTRITION PROGRAMS                                   • Based on the results of audits conducted in past
                                                              reporting periods, a sponsor in Arizona and another
                                                              in California were terminated from participating in
Operation “Kiddie Care” Continues To Identify                 CACFP for being seriously deficient in their
Program Abuses                                                administration of the program.

Operation “Kiddie Care,” our nationwide initiative to       • In Georgia, another sponsor was terminated from
identify, remove, and prosecute unscrupulous Child and        CACFP because the director appeared to have
Adult Care Food Program (CACFP) sponsoring                    inflated meal counts and created fictitious children.
organizations (sponsors), continued to be successful.
OIG worked closely with FNS concerning needed               • We previously reported that the owner of a
regulatory and legislative changes recommended in our         multicenter day care operation in Michigan had been
August 1999 audit report. In June 2000, Public Law            sentenced to 9 years in prison, followed by 3 years’
106-224 was enacted, which included provisions to             supervised release, and was ordered to pay more
restore program integrity to CACFP. FNS is working on         than $23.5 million in combined fines and restitution,
regulatory changes to implement these provisions.             as well as forfeit over $1.1 million in cash and three
                                                              properties. A second individual, her assistant, has
To date, 47 CACFP sponsors, who were receiving                now pled guilty to conspiracy to commit program
about $82.7 million annually, have been found seriously       fraud and was sentenced to 15 months in prison and
deficient in their operation of the program. FNS took         $13.5 million in restitution. This assistant, along with
action to terminate 29 of these sponsors, who received        the owner of the operation, defrauded USDA of
about $52.9 million annually, because the sponsors did        approximately $27 million in CACFP funds.
not take sufficient action to correct the deficiencies.
Sixty-four individuals were indicted or named in criminal   • A mother and her daughter pled guilty to embezzling
information documents for defrauding CACFP, and               CACFP funds from their New York corporation. The
51 individuals pled guilty or have been convicted.            mother was executive director and her daughter was
Audits and investigations continued to yield results.         a corporate officer in their business, which provided
                                                              meal service for day care centers in Brooklyn,
• We found that a sponsor in New York needed to               Queens, and Nassau County, New York. From 1995
  improve accountability over administrative costs and        through 1997, the corporation received $1.6 million in
  meal counts, and monitoring of meal service activities      CACFP funds from USDA. During that time, the
  needed improvement. Sponsor employees were paid             subjects transferred $75,000 in grant money from a
  approximately $115,000 without required time and            business account to personal savings and checking
  attendance reports. When such reports were                  accounts. The money was used for travel, including
  prepared, we identified approximately $7,000 in             a Hawaiian vacation, clothing, jewelry, gifts, and
  overpayments because employees were paid for                other personal uses. Sentencing is pending.
  more hours worked than documented. Receipts or
  invoices did not support expenditures totaling
  approximately $2,500, and expenditures of
  approximately $17,000 were made for unallowable
  program costs.




22
Marketing and Regulatory Programs


 AGRICULTURAL MARKETING SERVICE                            Owner of Coffee Company Sentenced
 (AMS)
                                                           The owner of a Bridgeport, Connecticut, coffee
                                                           company has been sentenced to 5 years’ probation and
AMS enhances the marketing and distribution of             ordered to pay a $21,000 fine in a case in which he had
agricultural products by collecting and disseminating      previously pled guilty to one count of wire fraud. The
information about commodity markets, administering         company bid on eight contracts, worth about $400,000,
marketing orders, establishing grading standards, and      with a food distributor in Illinois to manufacture and ship
providing inspection and grading services. AMS’            coffee. The contracts required official inspection and
funding level for FY 2000 is approximately $274 million.   certification by USDA, because the coffee product was
                                                           to be used in Illinois public institutions. The company
AMS Needs To Strengthen Controls Over                      obtained the contracts by submitting the lowest bid; but
Inspections at Terminal Markets                            in order to make a profit on the contracts, the company
                                                           never obtained USDA inspections and provided falsified
The AMS Administrator requested that we evaluate           documentation.
controls over inspection activities at terminal markets
after nine fruit and vegetable inspectors were arrested
and charged with accepting bribes for downgrading           ANIMAL AND PLANT HEALTH INSPECTION
loads of produce so that wholesalers could negotiate        SERVICE (APHIS)
lower prices with shippers. AMS had developed a
management action plan to strengthen inspection            Through inspection, APHIS protects the Nation’s
procedures and reduce the risk of further fraudulent       livestock and crops against diseases and pests and
activities, which we assessed along with AMS’              preserves the marketability of U.S. agricultural products
applicable policies and operating procedures.              at home and abroad. APHIS’ available funding for
                                                           FY 2000 is estimated at about $573 million.
We concluded that no single modification to AMS’
procedures would eliminate the risk of fraudulent          Smugglers Sentenced in Government Official
activities at terminal markets. However, we did identify   Bribery Case
areas where improvements to AMS’ existing or
proposed management controls could deter or detect         A previously reported multiagency operation in San
fraudulent activities in the future. Some of our           Francisco netted three importers who tried to bribe a
observations and conclusions are that AMS supervision      Food and Drug Administration (FDA) official in order to
and oversight at terminal markets need to be expanded,     expedite the entry of their food shipments from Hong
formalized ethics and fraud awareness training should      Kong into the United States without regulatory
be provided to inspectors, and a rotation schedule for     inspections. The subjects submitted false entry
inspectors within and between markets should be            documents that omitted the smuggled items. The
considered. We also saw a need for AMS’ data base          importers had previously been convicted of criminal
capabilities/functions to be augmented to support trend    charges including bribery, money laundering,
analyses of inspections conducted, along with the use      smuggling, entry of adulterated foodstuffs, and
of digital imaging to record the condition of inspected    conspiracy.
commodity shipments. We further believe that
improved communication with and between producers/         In July 2000, one of the importers was sentenced to
shippers and the wholesale industry, along with            7 years and 3 months in prison and 3 years’ probation
independent, unannounced inspections by AMS at             with a $12,500 fine. The court found that he was the
terminal markets, would help to deter abuse and            leader and organizer of the criminal conduct and had
promote uniformity of inspections nationwide.              obstructed justice by providing false testimony at his
                                                           trial. In addition, the judge granted the Government’s
AMS plans to implement its management action plan          motion for upward departure from sentencing guidelines
and incorporate our suggestions to improve its             based on the serious risk to public health and safety
management controls.                                       caused by the smuggling of salmonella-laden seafood
                                                           into the country. The second importer was sentenced to



                                                                                                                    23
5 years’ probation and fined $3,000, while the third was
sentenced to 8 months in prison, 3 years of supervised
release, and a $3,000 fine.

This case resulted from work initiated by the San
Francisco Interagency Import Task Force, which has
been targeting firms involved in illegally importing plants
and animals that may present a threat to America’s food
supply. OIG agents have been working with
representatives from FDA, APHIS, the U.S. Customs
Service, the U.S. National Marine Fisheries Service, the
U.S. Fish and Wildlife Service, the IRS, and the
California Department of Food and Agriculture at the
direction of the U.S. Attorney for the Northern District of
California.

Indictments for Conspiracy To Smuggle
Commercial Agricultural Products

Following notification by the California Department of
Food and Agriculture that a Los Angeles agricultural
products import firm may have smuggled tons of
Mexican sweet limes into the United States in the fall of
1999, we initiated a joint criminal investigation with the
U.S. Customs Service. In June, a 27-count indictment
was filed, charging three individuals and two firms with
conspiracy, smuggling, and aiding and abetting.

Two of the three indicted subjects have been arrested
and are awaiting trial on charges relating to the
transport of various agricultural products, including
Mexican sweet limes, into California from Mexico.
Evidence was developed that a substantial portion of
the illegally imported Mexican sweet limes was infested
with Mexican fruit fly larvae.




24
Rural Development


 RURAL HOUSING SERVICE (RHS)                                         In addition, by not properly filing insurance claims, the
                                                                     realty company increased profits of the IOI firm. For
                                                                     several projects reviewed, losses totaling about
RHS is responsible for making available decent, safe,                $374,000 were not properly reported. In several cases,
sanitary, and affordable housing and community                       the realty company used operating and reserve funds
facilities through loans and grants for rural single-family          for repairs instead of filing insurance claims against the
housing, apartment complexes, fire stations, libraries,              IOI firm. Further, the realty company and the IOI
hospitals, and clinics. For FY 2000, program funding for             reinsurance firm started an insurance loss control
RHS loans and grants totaled $5.8 billion.                           program that provided management company personnel
                                                                     with incentives, which were inconsistent with their
RRH Nationwide Initiative Finds Problems in                          fiduciary responsibilities to projects. Also, an officer of
Missouri                                                             the realty company and the IOI firm used part of the IOI
                                                                     firm’s assets as collateral for personal credit.
A realty company and an identity of interest (IOI)
reinsurance firm set in motion an insurance program                  Moreover, the realty company charged nearly $109,000
which did not meet requirements of RHS regulations                   in questionable costs to projects for central office
and did not comply with national office directions. From             administrative and supply costs in 1996 and 1997. The
July 1992 through July 1998, the realty company                      realty company charged projects an onsite labor markup
withdrew insurance premiums, totaling about                          rate without the knowledge and consent of servicing
$4.3 million, from project accounts without providing                officials and did not always properly record and report
satisfactory protection for projects securing RHS loans.             payroll charges. For 29 projects, the realty company
While the realty company originally told RHS the IOI                 delayed payment of vendor invoices, resulting in
firm would save money, projects were actually charged                unnecessary project charges totaling about $3,300. We
excessive premiums. For example, annual insurance                    referred this case for investigation during our fieldwork.
costs for the realty company’s Missouri projects
exceeded the State average by about $113,000. The                    We recommended that RHS (1) debar or replace the
realty company and the IOI firm did not respond to                   realty company as a management agent, (2) require
repeated agency directions to reduce insurance costs.                development of satisfactory plans to bring the physical
In addition, the realty company and the IOI firm                     condition of all projects up to minimum RHS
arranged outside financing, costing an estimated $3,500              requirements, and (3) instruct the realty company that
annually in interest, to pay insurance premiums for                  the current property and liability insurance policy was
55 projects.                                                         not to be renewed. We also recommended that, after
                                                                     completion of any investigations, RHS instruct the realty
                                                                     company to refund to the projects the full premium paid
                                                                     to the IOI firm for insurance and the improper project
                                                                     expenses.

                                                                     Farm Labor Housing Program Borrowers in Three
                                                                     States Overcharged $475,000

                                                                     We reviewed 11 projects of RHS’ Farm Labor Housing
                                                                     Program (designed to foster affordable rental housing)
                                                                     in California, Florida, and Washington. We identified
                                                                     over $475,000 in unallowable costs charged by
                                                                     borrowers to their projects and overpayments they
                                                                     received, and recommended that about $78,000 of that
                                                                     amount be collected.
Decaying siding is representative of conditions found in apartment
complexes managed by the realty company. OIG photo.                  In Washington, we found that one housing authority
                                                                     overcharged its three projects almost $397,000 in
                                                                     management fees between 1996 and 1998. It had



                                                                                                                             25
charged fees equal to about 32 percent of rents,             Rural Housing Contractor Pleads Guilty to Fraud
although a State office directive limited management
fees to no more than 10 percent. We concluded that           An Oregon building contractor who had committed fraud
these overcharges likely resulted in excessive rental        pled guilty in Federal District Court to failure to provide
assistance costs to the Government. The housing              information to the IRS. He also pled guilty on behalf of
authority also obtained compilations instead of the          his corporation to providing a false document to Rural
required annual audits, and, as a result, had less           Development. Sentencing in the criminal case is
assurance that program funds were being properly             pending.
expended. Another Washington State housing authority
also overcharged its project more than $6,000 in             In a settlement of a civil action stemming from evidence
management fees, exceeding the State office directive.       developed during our criminal investigation, the
                                                             contractor agreed to permanent exclusion from future
Shoddy Construction and Unauthorized Use of Loan             Rural Development housing construction or operation of
Funds                                                        housing projects financed or guaranteed by RHS. As
                                                             part of the civil settlement, the contractor agreed to pay
At the request of the Oklahoma State Rural                   the Federal Government $80,000 in fines and
Development Office, we reviewed loan and grant               restitution. This case was worked jointly with the IRS.
activities under the section 504 program at the local
field office in Antlers, Oklahoma. The request was           Ohio Contractor Guilty of Theft
made because of numerous borrower complaints about
shoddy repair work to their homes. Section 504 rural         An Ohio contractor was indicted and pled guilty to State
housing loans and grants are intended to provide very-       charges resulting from an OIG investigation into the
low-income rural homeowners an opportunity to make           misuse of Rural Development loan funds and forgery of
essential repairs to their homes when they cannot            checks. The contractor pled guilty to grand theft, was
obtain credit otherwise.                                     sentenced to 5 years’ probation, and was ordered to
                                                             pay $3,000 restitution.
We found that in 6 of 10 cases reviewed, loan and grant
funds were released to contractors before work was
                                                              RURAL BUSINESS-COOPERATIVE SERVICE
completed or before releases were authorized under
                                                              (RBS)
terms of the construction contracts. In all but one case,
the work was eventually completed, although in five
cases we found construction defects that should have         RBS enhances the quality of life for rural residents
been corrected before final payments were made. We           through grants or loans to rural-based cooperatives and
also found that about $7,000 in loan funds was used to       businesses and through partnerships with rural
finance an outside storage building and add a third          communities. RBS national staff and Rural
bedroom with bath. None of these improvements are            Development State office staff promote stable business
authorized under the program.                                environments in rural America through financial
                                                             assistance, business promotion, and technical
We recommended that Rural Development monitor the            assistance, as well as research, education, and
future release of loan funds under the 504 program to        information.
ensure that sufficient materials are in place and/or labor
is completed to justify fund releases. We also
recommended that the cited construction defects be
corrected and that future construction work be better
monitored to ensure defects are corrected and funds
are used for authorized purposes.




26
Lender Did Not Obtain Sufficient Collateral To               the equipment was in good condition or even if the
Secure B&I Loan                                              equipment existed. In addition, this “desktop appraisal”
                                                             could not be used to accurately value a company’s
At the request of the Pennsylvania Rural Development         equipment, because the equipment is never viewed and
State Office, we audited a $7 million Business and           total reliance is placed on the information provided by
Industry (B&I) guaranteed loan. The borrower had             the company. Consequently, the lender had no
defaulted on the loan, and subsequent appraisals of the      assurance that the appraisal document provided by the
borrower’s machinery and equipment showed a large            borrower was prepared by a qualified appraiser or that
discrepancy in the original machinery and equipment          the appraisal represented market values.
appraisal.
                                                             Rural Development personnel agreed that the lender did
The lender did not meet its responsibilities in processing   not meet program requirements for obtaining an
the loan, because it:                                        appraisal on the borrower’s collateral for the loan. We
                                                             recommended that the agency take appropriate action
• Allowed the borrower to obtain and submit an               to void the loan note guarantee of $4.2 million, in
  appraisal of the borrower’s machinery and equipment        consultation with the Office of the General Counsel
  to be used as security for the loan and                    (OGC). Rural Development officials agreed with the
                                                             findings and recommendations and are working with
• did not follow up with the appraiser to request a          OGC to recover the loss.
  certification that the work was prepared by him and
  that the values reflected were true and correct.           Misclassifications Result in Grant to Business in
                                                             Ineligible Urban Area
Affidavits the lender later obtained from individuals
noted that the appraiser did not prepare the appraisal       Prompted by a Hotline complaint, we found that Puerto
document submitted by the borrower. In one affidavit, it     Rico State Office misclassifications had resulted in a
was stated that the individual was asked to help create      Rural Business Enterprise Grant (RBEG) of $850,000 to
an appraisal document valuing the company’s assets,          a nonprofit corporation in an ineligible area. The State
specifically to retype information furnished by an           Office’s methodology used to classify areas as rural
appraisal company. Moreover, the borrower requested          and, as such, eligible for RBEG funding, was flawed.
additional appraisal information be added to the             State Office officials classified 165.9 of 3,426.5 square
document.                                                    miles in Puerto Rico as nonrural areas ineligible for
                                                             RBEG funding; we identified approximately 1,666
The appraiser told us that the appraisal was completed       square miles of ineligible territory, including the area in
in the office based on listings of equipment provided by     question.
the borrower. The appraiser did not determine whether




                                                                                                                     27
Research, Education, and Economics


 AGRICULTURAL RESEARCH SERVICE (ARS)


Corporate President Convicted for $5.6 Million
Contract Fraud

A corporation, its president, and its vice president were
indicted for contract fraud involving a renovation project
at an ARS research station in Pennsylvania and
renovation work for the U.S. Navy. The contracts
totaled over $5.6 million, with $4.5 million slated to
overhaul the USDA Research Station and the remainder
to remove asbestos and lead-based paint as well as
renovate a minimart for the U.S. Navy. The corporation
used subcontractors to complete the necessary
renovation work and then failed to pay 16 of them,
resulting in construction delays and subcontractors
walking off the job until they received payment. The
president of the corporation has pled guilty to the
charges and is awaiting sentencing. Trial is pending for
the vice president and corporation. Other agencies that
worked jointly on this investigation included the Naval
Criminal Investigative Service, the Small Business
Administration OIG, and the Department of Labor OIG.




28
Financial, Administrative, and Information
Technology

 FINANCIAL MANAGEMENT                                       The agency has agreed to:

                                                            • Develop a regulatory work plan for the approval of
The Chief Financial Officers Act and the Government           the Under Secretary for Farm and Foreign
Management Reform Act require USDA to prepare and             Agricultural Services to amend FLP regulations to
audit financial statements. Financial statements are          establish future final loss claim payments on
generated from six separate systems operated by               FSA-guaranteed loans as debts due the Federal
various USDA agencies.                                        Government and

OIG Works To Establish Defaulted Guaranteed Loan            • establish procedures for referral of such accounts to
Losses as Government Debt, Presently a                        Treasury for collection under DCIA.
Multimillion-Dollar Shortcoming
                                                            Financial Statement Audits
OIG assisted FSA in a critical area that is unnecessarily
costing the Government many millions of dollars. As         Commodity Credit Corporation’s FY 1999 Financial
part of its mission, FSA guarantees loans to farmers        Statement: Qualified Opinion
who otherwise cannot obtain financing in the private
sector. The Debt Collection Improvement Act (DCIA) of       For the second consecutive year, we have been unable
1996 specifies that:                                        to issue a clean opinion on CCC’s financial statements.
                                                            Although CCC had reported that it had taken actions to
• Losses on guaranteed loans are to be established as       correct some of the problems we noted in our FY 1998
  Government debt and                                       report, we found, in fact, that the problems related to
                                                            CCC foreign accounting operations had seriously
• Government debt delinquent for 180 days or more be        worsened. For FY 1999, our opinion changed from a
  submitted to the U.S. Department of the Treasury          disclaimer to a qualification because substantial time
  (Treasury) for collection.                                was taken by CCC after the deadline established by the
                                                            Department had passed to provide us the FY 1999
Our review of loan guarantees to Farm Loan Program          financial statements. Unless meaningful corrective
(FLP) borrowers revealed that FSA did not establish         actions are taken, achieving the reforms required by
losses paid on defaulted guaranteed loans as debts to       recent financial management legislation will not be
the Government. As a result, losses in excess of            accomplished. With assets of over $13.6 billion and
$200 million were not reported to Treasury during           costs of about $24.3 billion, it is essential that CCC
FY’s 1997 through 2000 for collection in accordance         make reforms.
with DCIA.
                                                            Our internal control report described numerous control
In a March 2000 opinion, USDA’s OGC determined that         weaknesses, and our report on CCC’s compliance with
FSA did not have the express statutory authority to treat   laws and regulations described its noncompliance with
losses paid to lenders as debts owed to the                 the Federal Financial Management Improvement Act
Government. OGC determined that, because the lender         (FFMIA) of 1996 and provisions of DCIA.
could not use DCIA to collect the debt, neither could
FSA. However, OGC provided the steps necessary for          We recommended a comprehensive review be
FSA to fulfill DCIA (which we recommended FSA take):        performed, in consultation with the Office of the Chief
                                                            Financial Officer (OCFO), of the problems we noted in
• Revise FSA regulations by proposed rule to state that     our audit and that effective and meaningful actions be
  if FSA purchases the guaranteed portion from the          taken by CCC officials to resolve these weaknesses.
  holder of the note or pays a loss claim on the loan to    We also recommended that CCC reorganize its financial
  the lender, FSA will use all remedies available to it,    accounting and reporting functions, improve the
  including DCIA, to recover the Federal debt directly      timeliness and accuracy of its financial information, and
  from the borrower and                                     strengthen supervisory management oversight over
                                                            financial account reconciliation, accounting entries, and
• require the borrower to sign a form stating the same.     adjustments.



                                                                                                                   29
CCC recognizes the need for improvement and has            FAS officials indicated CFR 3019 was not implemented
initiated actions to address the reported problems         because it did not apply to its grants and they had
related to accounting for credit reform operations. CCC    OGC’s concurrence. This was not in the form of a
has developed project plans to address its foreign         written legal opinion. Nevertheless, Departmental
accounting operations and has hired a contractor who is    Regulation 2120-0001 and Title 31, U.S. Code 3335,
looking into specified credit reform issues.               also impose cash management controls that apply to
                                                           FAS, and FAS did not comply.
Federal Financial Management Improvement Act
                                                           We recommended that OCFO develop and implement a
Currently not in compliance with FFMIA requirements,       strategy to ensure USDA agencies comply with CFR
USDA, as required by law, has developed a remediation      3019 and that Departmental Regulation 2120-0001 be
plan, with detailed remediation plans for CCC, Rural       updated. We also recommended that $74,000 in
Development, FS, and the National Finance Center.          interest be returned to Treasury and that efforts be
The Department has made progress and is generally on       made with Treasury to reduce agencies’ appropriations
track with intermediate dates, but the plan is long-term   by about $335,000 for the increased borrowing costs.
in nature. Implementation of the Department’s new          Further, we recommended that USDA agencies be
accounting system has an estimated completion date of      directed to review existing advances to recover earned
October 1, 2002, and Rural Development’s individual        interest not returned to Treasury, ensure advances are
remediation plan has target dates that extend to           put in interest-bearing accounts, and that recipients
September 2003.                                            promptly disburse advances.

Controls Over Fund Advances Need Improvement               OCFO agreed with the facts presented but disagreed
                                                           with our contention that OCFO is responsible for
We evaluated OCFO and agency controls over fund            assuring agency compliance.
advances to nonprofit organizations (NPO) and found
that management of cash advances by USDA agencies
                                                            INFORMATION TECHNOLOGY
to NPO’s needed improvement. Three agencies
reviewed (FAS, RHS, and RUS), representing $283.5
million (87 percent) of the grants reviewed, had not       PCIE Critical Infrastructure Protection Review
incorporated Title 7, Code of Federal Regulations (CFR)
3019, into their grant agreements with NPO’s. Another      The President’s Council on Integrity and Efficiency
agency (APHIS), representing $4.8 million (1 percent) of   (PCIE) Audit Committee began a review of the Nation’s
the grants, had incorporated the regulation but had not    critical infrastructure assurance program. As part of this
fully implemented the provisions. OCFO had not             review, we audited the Department’s implementation of
assured compliance with departmental regulations over      Presidential Decision Directive (PDD) 63, “Policy on
cash management by USDA agencies.                          Critical Infrastructure Protection.” The Department has
                                                           neither fully identified its mission-essential infrastructure
USDA advances to NPO’s resulted in profits to grant        nor performed the necessary assessments to identify
recipients, increased interest expense resulting from      the threats, vulnerabilities, and potential magnitude of
premature borrowing needs, and the potential of having     harm that could result from an attack. Also, the planned
agency administrative appropriations reduced by the        formation of a Critical Infrastructure Assurance Council,
increased borrowing needs of Treasury. For example,        composed of agency management representatives to
for the 26 grants reviewed with $81.6 million in           ensure cyber infrastructure security and PDD 63
advances, we found almost $74,000 in interest that had     compliance, was never established.
been earned on cash advances and not returned to
Treasury, about $126,000 in interest lost to the           We recommended that the Office of the Chief
Government for not putting advanced funds in interest-     Information Officer (OCIO) revise its Critical
bearing accounts, and about $407,000 in unneeded           Infrastructure Assurance Plan to update the timeframes
interest expense to the Government to advance the          for compliance with PDD 63 and establish an
funds.                                                     aggressive strategy to implement the plan. We also
                                                           recommended that OCIO seek additional funding to



30
ensure adequate resources and staff with the necessary       We recommended that FS develop and implement a
skills to carry out the provisions of PDD 63 and its plan.   comprehensive strategy to ensure the collection and
The establishment of the OCIO-proposed Executive             reporting of accurate, complete, and meaningful
Council and Critical Infrastructure Assurance Council to     performance data that include effective internal controls.
ensure senior management involvement in cyber                We recommended that the agency continue the process
security was also recommended. OCIO agreed with all          of establishing, publishing, and ensuring adequate
our recommendations and has initiated corrective             written guidance defining each performance measure
actions.                                                     and setting forth the documentation needed to support
                                                             reported accomplishments. Until the agency can
                                                             provide reasonable assurance of the quality of its
 GOVERNMENT PERFORMANCE AND
                                                             Annual Performance Reports, FS should report the lack
 RESULTS ACT (GPRA) OF 1993
                                                             of an effective system of internal controls over
                                                             performance reporting as a material weakness in the
FS Had Not Effectively Implemented GPRA                      Federal Managers’ Financial Integrity Act report.

FS’ FY 1999 Annual Performance Report was based on
flawed data and assumptions to such an extent that the
report did not provide reliable information about actual
performance or the agency’s progress in meeting its
goals and objectives. Because these conditions had not
been corrected, it is unlikely that a useful or reliable
report will be produced for FY 2000.

Errors and omissions occurred because performance
reporting was not incorporated into FS’ business
processes and field-level employees did not understand
the need for or value of accurate performance reporting.
Reported data was garnered through a patchwork of
information systems that lacked such basic internal
                                                             As an example of the misreporting of performance, this road was
controls as programmatic reviews, documentation of           improperly reported to be a stream. OIG photo.
reported results, and clearly written guidance. FS
expended scarce resources to develop a report of             If the agency cannot ensure the FY 2000 report
dubious usefulness to decision makers, likely reinforcing    provides accurate and meaningful performance data,
the public perception that the agency lacks credibility.     we recommended that FS seek a waiver, report only
Internal controls over performance reporting were            those measures in which the agency has a reasonable
inadequate as designed and implemented. Further, for         degree of confidence, or issue a report without
some performance measures, written policy guidance           quantitative data that candidly describes problems and
did not adequately describe reporting requirements.          plans.




                                                                                                                               31
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal, or
investigative proceedings which must be completed before the agency can act to complete management decisions.


 New Since Last Reporting Period


                                                                                                        Amount With
                                                                                  Total Value             No Mgmt.
                                                                                  at Issuance             Decision
Agency             Date Issued                       Title of Report              (in dollars)           (in dollars)

APHIS                03/07/00                    1. Plant Protection and                2,851                 2,851
                                                    Quarantine Activities in
                                                    Florida (33004-1-At)

CR                   03/10/00                    2. Evaluation Report for the                0                     0
                                                    Secretary on Civil
                                                    Rights Issues – Phase 7
                                                    (60801-3-HQ)

                     03/10/00                    3. Status of Recommendations                0                     0
                                                    Made in Prior Evaluations
                                                    of Program Complaints
                                                    (60801-4-HQ)

FNS                  03/22/00                    4. CACFP - National                  319,279               319,279
                                                    Initiative To Identify
                                                    Problem Sponsors -
                                                    Wildwood (27010-3-KC)

FSA                  03/31/00                    5. Emergency Conservation          2,952,472             2,952,472
                                                    Program
                                                    (03601-15-KC)

Rural                02/22/00                    6. Rural Development’s                      0                     0
Development                                         Consolidated Financial
                                                    Statements for
                                                    FY 1999 (85401-1-FM)

RUS                  02/11/00                    7. Telephone Loan Program 2,476,838,023             2,476,838,023
                                                    Policies and Procedures
                                                    (09016-1-Te)

RMA                  03/30/00                    8. FY 1999 FCIC Financial                   0                     0
                                                    Statements Report on
                                                    Management Issues
                                                    (05401-8-FM)


32
                                                                                                        Amount With
                                                                                  Total Value             No Mgmt.
                                                                                  at Issuance             Decision
Agency             Date Issued                       Title of Report              (in dollars)           (in dollars)

                     03/31/00                    9. Standard Reinsurance            5,971,666             5,971,666
                                                    Agreement (SRA)
                                                    Reporting Requirements
                                                    (05099-8-KC)

NRCS                 03/31/00                    10. NRCS Contracting,                784,562               473,368
                                                     Procurement, and
                                                     Disbursement Activities,
                                                     Fort Worth, TX (10601-1-Te)*


 Previously Reported but Not Yet Resolved


These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but
for various reasons the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.


ARS                  02/08/99                    11. J.A. Jones Management            160,233               160,233
                                                     Services CY’s 1994 and
                                                     1995 Incurred Costs
                                                     (02017-4-At)

CR                   09/30/98                    12. Evaluation of CR Efforts                0                     0
                                                     To Reduce Complaints
                                                     Backlog (60801-1-HQ)

                     03/24/99                    13. Evaluation of CR Management             0                     0
                                                     of Settlement Agreements
                                                     (60801-2-HQ)

CSREES               03/27/97                    14. Use of 4-H Program Funds -         5,633                      0
                                                     University of Illinois
                                                     (13011-1-Ch)

                     03/31/98                    15. National Research Initiative 32,757,862            32,757,862
                                                     Competitive Grants Program
                                                     (13601-1-At)

FNS                  09/22/97                    16. Child and Adult Care Food         56,296                56,296
                                                     Program – Sponsor Abuses
                                                     (27601-7-KC)*

                     12/07/98                    17. CACFP – Family Day Care          338,100               338,100
                                                     Services, Inc. – West Palm
                                                     Beach, FL (27601-7-At)*
                                                                                                                       33
                                                                        Amount With
                                                       Total Value        No Mgmt.
                                                       at Issuance        Decision
Agency   Date Issued      Title of Report              (in dollars)      (in dollars)

           07/29/99    18. FSP – Cross-State Match        394,025          394,025
                           (27601-9-KC)*

           08/23/99    19. Child and Adult Care Food   34,551,576       34,551,576
                           Program, National Report
                           on Program Abuse
                           (27601-7-SF)

FS         07/18/96    20. FS Financial              1,150,183,750    1,150,183,750
                           Statements
                           (08401-4-At)

           09/30/96    21. Real and Personal                     0               0
                           Property Issues
                           (08801-3-At)

           03/31/97    22. Research Cooperative           468,547          468,547
                           and Cost Reimbursable
                           Agreements
                           (08601-18-SF)*

           07/13/98    23. FY 1997 FS Financial                  0               0
                           Statements (08401-7-At)

           02/23/99    24. FY 1998 FS Financial                  0               0
                           Statements (08401-8-At)

           02/25/00    25. FY 1999 FS Financial                  0               0
                           Statements (08401-9-At)

FSA        09/30/93    26. Disaster Program,            5,273,795        1,482,759
                           Nonprogram Crops,
                           Mitchell County, GA
                           (03097-2-At)*

           09/19/95    27. Management of the           75,175,410          909,437
                           Dade County, FL, FSA
                           Office (03006-1-At)*

           09/28/95    28. Disaster Assistance          1,805,828        1,805,828
                           Payments, Lauderdale,
                           TN (03006-4-At)*

           01/02/96    29. 1993 Crop Disaster           2,469,829        2,418,167
                           Payments Brooks/
                           Jim Hogg, TX
                           (03006-1-Te)*


34
                                                                               Amount With
                                                                Total Value      No Mgmt.
                                                                at Issuance      Decision
Agency        Date Issued       Title of Report                 (in dollars)    (in dollars)

                05/02/96    30. Disaster Assistance              2,177,640      2,145,533
                                Program–1994, Thomas
                                County, GA
                                (03006-13-At)*

                09/18/96    31. Emergency Feed Program in          626,182       115,425
                                Texas (03601-7-Te)*

                09/30/96    32. 1994 Disaster Assistance 2,666,383              1,714,249
                                Program, ME (03601-1-Hy)

                04/30/98    33. Reeves County Office             1,365,640       421,152
                                Operations, Pecos, TX
                                (03801-36-Te)

                09/30/98    34. Wool and Mohair Payment          2,432,112      2,432,112
                                Limitation, Val Verde
                                County, TX (03099-20-Te)*

                03/30/99    35. Payment Limitation –               881,924       881,924
                                Mitchell County, GA
                                (03006-20-At)

Multiagency     09/30/98    36. CSREES Managing Facilities 3,824,211            3,281,534
                                Construction Grants
                                (50601-5-At)

                03/31/99    37. PVO Grant Fund              18,629,558         18,501,064
                                Accountability (50801-6-At)

RBS             10/01/99    38. B&I Loan – Indiana Farms           595,511       595,511
                                (34099-3-Ch)

Rural           02/01/99    39. FY 1998 Rural Development                 0             0
Development                     Financial Statements
                                (50401-28-FM)

RHS             08/10/98    40. Self-Help Housing Program -               0             0
                                Grizzly Hollow Project, Gatt,
                                CA (04801-2-SF)*

                01/08/99    41. RRH Program – Dujardin             195,694       195,694
                                Property Management, Inc.,
                                Everett, WA (04801-5-SF)*

                02/13/99    42. RRH – Initiative in North          109,653       109,653
                                Carolina (04801-7-At)


                                                                                            35
                                                                      Amount With
                                                      Total Value       No Mgmt.
                                                      at Issuance       Decision
Agency   Date Issued       Title of Report            (in dollars)     (in dollars)

           03/25/99    43. Guaranteed Rural Housing 139,220,122         215,030
                           Loan Program (04601-2-At)

           03/31/99    44. RRH – Nationwide Initiative     233,958      233,958
                           in NE – Bosley Management,
                           Inc., Sheridan, WY
                           (04801-3-KC)

           04/20/99    45. RRH Program – Owner/            346,685      346,685
                           Manager, Olympia, WA
                           (04801-6-SF)

           06/03/99    46. RRH Program – Medlock            78,865        73,865
                           Southwest Management
                           Corporation (04099-7-Te)

           09/23/99    47. RRH Initiative – Calhoun      12,931,081            0
                           Property Management
                           (04801-11-Te)

RMA        01/31/94    48. Tobacco Indemnity                88,631        88,631
                           Payments, Mitchell
                           County, GA (05099-22-At)

           09/30/97    49. Crop Insurance on Fresh       15,082,744            0
                           Market Tomatoes
                           (05099-1-At)

           03/03/98    50. Transfer of CAT                       0             0
                           Policies to Reinsured
                           Companies
                           (05099-1-KC)

           04/10/98    51. Crop Insurance Claims           126,787             0
                           (05601-1-KC)

           12/16/98    52. Crop Insurance on              3,963,468    3,963,468
                           Nurseries (05099-2-At)

           09/30/99    53. Servicing of CAT                      0             0
                           Policies
                           (05099-6-KC)




36
 Audits Without Management Decision - Narrative for New Entries




1. Plant Protection and Quarantine (PPQ) Activities         3. Status of Recommendations Made in Prior
   in Florida, Issued March 7, 2000                            Evaluations of Program Complaints, Issued
                                                               March 10, 2000
Our audit identified vulnerabilities and weaknesses in
PPQ practices for inspecting air and ship cargos and        OIG concluded that CR remained inefficient in
passengers in the Miami and Fort Lauderdale ports,          processing program complaints. While the original
which increased the risk of prohibited agricultural         backlog of 1,088 cases had been reduced to 35,
products entering the United States. Of 16 recom-           another 646 were stalled in CR’s “intend-to-file”
mendations to improve and strengthen controls over the      category, and 216 cases accepted since November
PPQ inspection process, we were able to reach               1997 may not be receiving due care. Including this
management decision on 4. For the remaining 12,             current audit, 28 recommendations remain without
APHIS officials must provide us with the results of their   management decision. Some of the more significant
analysis and reevaluation of their risk assessment          matters to be addressed are preparing and distributing
program, as well as specific timeframes for                 aging reports on cases in process, finalizing plans to
implementing corrective actions.                            evaluate civil rights compliance in 15 USDA agencies,
                                                            developing a case management system, locating
2. Evaluation Report for the Secretary on Civil             missing files, referring cases of discrimination for
   Rights Issues – Phase 7, Issued March 10, 2000           disciplinary consideration, and reevaluating cases that
                                                            were improperly closed.
The audit reported that the Office of Civil Rights’ (CR)
Equal Employment Opportunity (EEO) data base                4. Child and Adult Care Food Program - National
contained unreliable information and the condition of the      Initiative To Identify Problem Sponsors -
case files was such that an accurate picture of a case’s       Wildwood, Issued March 22, 2000
status could not be determined. CR was found to be
inefficient in processing EEO complaints, and data          The report had 22 recommendations, and management
furnished the Secretary on processing times was not         decision has been reached on 8. To achieve
accurate. We recommended that CR run routine                management decision on the remaining recom-
searches for anomalies in its data base and reconcile its   mendations, OIG needs to be informed of the
data with that of USDA agencies and the Equal               timeframes for corrective actions and provided evidence
Employment Opportunity Commission (EEOC) to bring           of billing for disallowed costs.
integrity to CR’s data base. We also recommended that
CR locate missing case files and perform a document-        5. Emergency Conservation Program (ECP),
by-document sweep of its case files to account for             Issued March 31, 2000
documentation, and provide full disclosure on its
methodology for reporting its civil rights activities. Of   The audit found that while FSA payments were
the 21 recommendations, 10 remain without                   generally correct and were issued to rehabilitate
management decision, as CR must still address making        farmland and rebuild conservation practices, not all
a sweep of case files, performing reconciliations, and      payments were proper and FSA’s spot-checks did not
developing plans and procedures to increase its             always include steps to identify the impropriety. We
operation efficiency.                                       also found that FSA should review those cases where
                                                            there was a maintenance default to determine whether
                                                            producers should be required to make repayments with




                                                                                                                  37
interest and/or penalty. We recommended that the FSA        financial assistance, and evaluate the financial condition
national office finalize updating the ECP Handbook and      of all borrowers and require those borrowers in strong
develop training material that could be used to train key   financial condition to graduate their outstanding direct
personnel whenever ECP is authorized. Management            loan balances to other credit sources. We also
decision has not been reached on any of the 16              recommended that RUS implement procedures to
recommendations. FSA indicated that a draft ECP             evaluate telephone loans annually to determine if the
proposed rule was in the clearance process and, after       purposes for which the loans were made have been
the final rule has been published, the ECP Handbook         accomplished and deobligate all unused funds that are
recommendation would have management decision.              not needed. The agency disagreed to initiate action on
FSA also agreed to review the questioned payments.          the recommendations, and we elevated the
FSA needs to advise OIG of the publication dates of the     management decision process to the Under Secretary
ECP rule, revised ECP Handbook, or notice(s) that were      for Rural Development. We continue to work with
cited in the response to the audit report. Although FSA     Department officials to reach management decision on
responded to many of the questionable payments, it          the recommendations.
needs to advise OIG of all determinations made and/or
actions taken, including claims established, funds          8. FY 1999 FCIC Financial Statements Report on
collected, or additional cost shares approved, for the         Management Issues, Issued March 30, 2000
other questioned payments.
                                                            Two recommendations remain unresolved. Before we
6. Rural Development’s Consolidated Financial               can accept management decision for one, we need to
   Statements for FY 1999, Issued February 22,              be provided a date for implementation of the planned
   2000                                                     Hot Site. For another, we need to be provided dates for
                                                            accomplishing implementation of the cited software
Rural Development agrees that it needs to work with the     package and company data transmission using a
Department’s Chief Financial Officer to develop a long-     secure Web server.
range plan to consolidate, reengineer, and integrate
financial/administrative systems. Rural Development is      9. Standard Reinsurance Agreement (SRA)
in the process of converting to the Department’s               Reporting Requirements, Issued March 31, 2000
Foundation Financial Information System to account for
its salary and administrative expenses. Rural               We reported that fund designation changes were not
Development agrees to participate in any departmental       controlled, centralized approval for fund changes was
initiatives to review other systems. However, we cannot     needed, and controls over yields needed to be
reach management decision until OCFO begins to plan         improved. In its written comments to the report dated
the reviews and provides a timeframe for accomplishing      March 31, 2000, and in its response dated June 2,
the contemplated actions.                                   2000, RMA provided sufficient information to reach
                                                            management decision on six of the eight
7. Telephone Loan Program Policies and                      recommendations. On June 16, 2000, we requested
   Procedures, Issued February 11, 2000                     that RMA provide additional information for
                                                            recommendation Nos. 1 and 2. For recommendation
We recommended that the Rural Utilities Service (RUS)       No. 1, RMA requested OGC to provide written
work with Congress to clarify RUS policy for the            documentation showing that RMA could not be
Telephone Loan Program regarding loan graduation            successful in its efforts to collect amounts (about
and requiring financially strong borrowers to obtain        $6 million) improperly collected by the Rain and Hail
credit from commercial sources. If Congress                 Insurance Service. OGC has not provided the
determines that RUS should graduate financially strong      documentation to date. For recommendation No. 2,
borrowers to commercial credit sources and require          RMA stated that reports would be generated to compare
such borrowers to obtain credit from other sources, we      previously approved and accepted fund designations to
recommended that RUS develop a strategy to establish        any changes in fund designations approved after the
a loan graduation program, require borrowers to be          cutoff dates. However, the response did not provide a
denied commercial credit as a condition for RUS             timeframe for implementation of the reports.




38
10. NRCS Contracting, Procurement, and
    Disbursement Activities, Fort Worth, TX,
    Issued March 31, 2000

OIG quantified funds misused by certain NRCS
personnel at NRCS’ National Business Management
Center. We recommended that NRCS officials take
appropriate administrative action. Regarding the
unauthorized information technology procurement, we
recommended that NRCS determine whether the funds
could be recovered and whether additional funds were
due the contractor. We also recommended that NRCS
inform the General Services Administration’s contracting
officials of the contractor’s unauthorized actions and
initiate debarment. These matters have been referred
to the U.S. attorney, following whose decisions
administrative actions will be determined.




                                                           39
 Indictments and Convictions

Between April 1 and September 30, 2000, OIG com-            Indictments and Convictions
pleted 300 investigations. We referred 205 cases to         April 1 - September 30, 2000
Federal, State, and local prosecutors for their decision.
                                                            Agency        Indictments             Convictions*
During the reporting period, our investigations led to
240 indictments and 251 convictions. The period of time     AMS                       0                       5
to obtain court action on an indictment varies widely;      APHIS                    10                       4
therefore, the 251 convictions do not necessarily relate    ARS                       3                       1
to the 240 indictments. Fines, recoveries/collections,      CSREES                    1                       0
restitutions, claims established, and cost avoidance        FNS                     179                     185
resulting from our investigations totaled about             FSA                      24                      29
$50.5 million.                                              FSIS                      4                       5
                                                            FS                       11                       3
The following is a breakdown, by agency, of indictments     GIPSA                     0                       1
and convictions for the reporting period.                   NRCS                      1                       4
                                                            OCIO                      0                       1
                                                            OIG                       0                       1
                                                            RHS                       4                       6
                                                            RMA                       2                       3
                                                            RUS                       0                       1
                                                            SEC                       1                       2
                                                                                    ___                     ___
                                                            Totals                  240                     251

                                                            * This category includes pretrial diversions.




40
 Office of Inspector General Hotline

The OIG Hotline serves as a national receiving point for
reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement,
and abuse in USDA programs and operations. During
this reporting period, the OIG Hotline received
1,134 complaints, which included allegations of
participant fraud, employee misconduct, and
mismanagement, as well as opinions about USDA
programs. Figure 1 displays the volume and type of the
complaints we received, and figure 2 displays the
disposition of those complaints.




 Figure 1                                                  Figure 2

 Hotline Complaints                                        Disposition of Complaints
 April 1 to September 30, 2000                             April 1 to September 30, 2000
 (Total = 1,134)
                                                                                   Referred to
                                      Reprisal                 Referred to       USDA Agencies
                                        0      Bribery       FNS for Tracking     for Response        Referred to
                       Participant                1                286                 584           State Agency
                         Fraud                                                                            32
                          734




    Waste/
                                              Health/
Mismanagement
                                  Opinion/    Safety         Referred to
     90       Employee          Information     21         USDA or Other                                Referred to
            Misconduct              111                     Agencies for Filed Without    Referred to Other Law
                177
                                                            Information-    Referral-     OIG Audit or Enforcement
                                                           No Response Insufficient      Investigations Agencies
                                                              Needed      Information      for Review       6
                                                                152            45              29




                                                                                                                 41
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests
 for the Period April 1 to September 30, 2000


Number of FOIA/PA Requests Received             327

Number of FOIA/PA Requests Processed:           328

 Number of Requests Granted in Full    205
 Number of Requests Granted in Part     54
 Number of Requests Not Granted         53

Reasons for Denial:

 No Records Available                   20
 Requests Denied in Full                25
 Referrals to Other Agencies            12


Requests for OIG Reports From Congress
and Other Government Agencies

 Received                              102
 Processed                             103


Appeals Processed                                   7

 Appeals Completely Upheld               7
 Appeals Partially Reversed              0
 Appeals Completely Reversed             0


Number of OIG Reports/Documents                 473
Released in Response to Requests

NOTE: A request may involve more than one report.




42
Appendix I


                                      INVENTORY OF AUDIT REPORTS ISSUED
                                       WITH QUESTIONED COSTS AND LOANS

                                                                          DOLLAR VALUES
                                                                                                 a
                                                              QUESTIONED          UNSUPPORTED
                                                  NUMBER    COSTS AND LOANS      COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                            57     $2,115,282,363        $87,171,085
   DECISION HAD BEEN MADE
   BY APRIL 1, 2000

B. WHICH WERE ISSUED DURING                           22        37,867,401           1,367,079
   THIS REPORTING PERIOD

      TOTALS                                          79     $2,153,149,764        $88,538,164

C. FOR WHICH A MANAGEMENT                             22
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

      (1) DOLLAR VALUE OF
          DISALLOWED COSTS

         RECOMMENDED FOR RECOVERY                              $10,163,877          $3,235,799

         NOT RECOMMENDED FOR RECOVERY                          $15,858,816         $11,910,369

      (2) DOLLAR VALUE OF                                       25,360,088          11,187,907
          COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                            57      2,101,833,748         62,204,089
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

      REPORTS FOR WHICH NO                            40      2,067,022,207         62,073,971
      MANAGEMENT DECISION WAS
      MADE WITHIN 6 MONTHS
      OF ISSUANCE

a
    Unsupported values are included in questioned values.




                                                                                                     43
Appendix II


                            INVENTORY OF AUDIT REPORTS ISSUED
                   WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                      NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT              22          $812,502,999
   DECISION HAD BEEN MADE
   BY APRIL 1, 2000

B. WHICH WERE ISSUED DURING              6           224,437,802
   THE REPORTING PERIOD

     TOTALS                             28        $1,036,940,801

C. FOR WHICH A MANAGEMENT               10
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

     (1) DOLLAR VALUE OF                            $232,365,352
         DISALLOWED COSTS

     (2) DOLLAR VALUE OF                                  70,000
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT              18           808,846,056
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

     REPORTS FOR WHICH NO               14           808,357,054
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE




44
Appendix III


                                          SUMMARY OF AUDIT REPORTS RELEASED
                                         BETWEEN APRIL 1 AND SEPTEMBER 30, 2000

DURING THE 6-MONTH PERIOD BETWEEN APRIL 1 AND SEPTEMBER 30, 2000, THE OFFICE OF INSPECTOR
GENERAL ISSUED 51 AUDIT REPORTS, INCLUDING 2 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                                     QUESTIONED    UNSUPPORTEDa    FUNDS BE
                                                           AUDITS      COSTS          COSTS         PUT TO
AGENCY                                                    RELEASED   AND LOANS      AND LOANS     BETTER USE

AGRICULTURAL MARKETING SERVICE                               1
AGRICULTURAL RESEARCH SERVICE                                1
FARM SERVICE AGENCY                                          6        $1,020,885       $12,710    $205,250,781
RURAL HOUSING SERVICE                                        5        $5,287,669                      $115,878
RISK MANAGEMENT AGENCY                                       1
COMMODITY CREDIT CORPORATION                                 1
FOREIGN AGRICULTURAL SERVICE                                 1
FOREST SERVICE                                               4        $1,350,000                   $18,796,596
RURAL UTILITIES SERVICE                                      1
NATURAL RESOURCES CONSERVATION
  SERVICE                                                    1
OFFICE OF THE CHIEF FINANCIAL OFFICER                        1
FOOD SAFETY AND INSPECTION SERVICE                           4
FOOD AND NUTRITION SERVICE                                   6         $200,137       $117,408
RURAL BUSINESS-COOPERATIVE SERVICE                           2        $5,820,256
MULTIAGENCY                                                 16       $24,188,454     $1,236,961      $274,547

TOTALS                                                      51       $37,867,401     $1,367,079   $224,437,802

TOTAL COMPLETED:
  SINGLE AGENCY AUDIT                                       31
  MULTIAGENCY AUDIT                                         14
  SINGLE AGENCY EVALUATION                                   4
  MULTIAGENCY EVALUATION                                     2

TOTAL RELEASED NATIONWIDE                                   51

TOTAL COMPLETED UNDER CONTRACTb                              2

TOTAL SINGLE AUDIT ISSUEDc                                  13
a
  Unsupported values are included in questioned values.
b
  Indicates audits performed by others.
c
  Indicates audits completed as Single Audit.




                                                                                                             45
                              AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                       BETWEEN APRIL 1 AND SEPTEMBER 30, 2000

                                                                      QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                            COSTS          COSTS        PUT TO
RELEASE DATE        TITLE                                             AND LOANS      AND LOANS    BETTER USE


AGRICULTURAL MARKETING SERVICE

 01-601-0003-CH EVALUATION OF GRADING ACTIVITIES AT TERMINAL
 2000/08/14

        TOTAL: AGRICULTURAL MARKETING SERVICE                     1

AGRICULTURAL RESEARCH SERVICE

 02-017-0003-SF INCURRED COST AUDIT - GLOBAL ASSOCIATES,
 2000/05/03     OAKLAND, CA

        TOTAL: AGRICULTURAL RESEARCH SERVICE                      1

FARM SERVICE AGENCY

 03-006-0020-TE   LAFLORE COUNTY FSA OFFICE DISASTER PROGRAMS            $226,785                      $1,981
 2000/08/22
 03-099-0026-TE   PAYMENT LIMITATION IN BRYAN COUNTY, OK                 $450,887
 2000/06/23
 03-099-0040-KC   1998 LOAN DEFICIENCY PAYMENTS IN CASS COUNTY,           $27,089
 2000/09/25       ND
 03-601-0017-KC   1998 CROP LOAN DEFICIENCY PAYMENT ACTIVITIES           $316,124      $12,710
 2000/09/29
 03-601-0036-TE   FARM LOAN PROGRAM GUARANTEED LOANS                                              $205,248,800
 2000/06/08
 03-601-0037-TE   RECAPTURE UNDER SHARED APPRECIATION
 2000/08/07       AGREEMENTS

        TOTAL: FARM SERVICE AGENCY                                6    $1,020,885      $12,710    $205,250,781

RURAL HOUSING SERVICE

 04-005-0001-TE   USE OF RHS LOAN FUNDS AT THE LOCAL FIELD                 $6,814
 2000/08/09       OFFICE IN ANTLERS, OK
 04-601-0006-SF   FARM LABOR HOUSING PROGRAM - STATE OF                   $54,152
 2000/08/16       CALIFORNIA
 04-601-0007-SF   FARM LABOR HOUSING PROGRAM - STATE OF FLORIDA           $16,745
 2000/08/03
 04-601-0008-SF   FARM LABOR HOUSING PROGRAM - STATE OF                  $402,957
 2000/05/12       WASHINGTON
 04-801-0002-KC   RRH - NATIONWIDE INITIATIVE IN MO - LOCKWOOD         $4,807,001                    $115,878
 2000/05/25       MANAGEMENT CO., ST. LOUIS, MO

        TOTAL: RURAL HOUSING SERVICE                              5    $5,287,669                    $115,878

RISK MANAGEMENT AGENCY

 05-001-0003-TE RATES AND YIELDS FOR CROP INSURANCE PILOT
 2000/04/05     PROGRAMS

        TOTAL: RISK MANAGEMENT AGENCY                             1

COMMODITY CREDIT CORPORATION

 06-401-0011-FM FISCAL YEAR 1999 CCC FINANCIAL STATEMENTS
 2000/07/13

        TOTAL: COMMODITY CREDIT CORPORATION                       1




46
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 2000

                                                                        QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                              COSTS          COSTS        PUT TO
RELEASE DATE        TITLE                                               AND LOANS      AND LOANS    BETTER USE


FOREIGN AGRICULTURAL SERVICE

 07-001-0001-CH REVIEW OF THE DAIRY EXPORT INCENTIVE PROGRAM
 2000/05/26

        TOTAL: FOREIGN AGRICULTURAL SERVICE                         1

FOREST SERVICE

 08-001-0001-HQ   FOREST SERVICE IMPLEMENTATION OF GPRA
 2000/06/28
 08-003-0006-SF   ZEPHYR COVE LAND EXCHANGE, LAKE TAHOE BASIN            $1,350,000                  $18,700,000
 2000/07/14       MANAGEMENT UNIT, SOUTH LAKE TAHOE, CA
 08-017-0013-SF   EQUITABLE ADJUSTMENT CLAIM - ENVIRONMENTAL                                            $96,596
 2000/09/19       CONSULTING, PLANNING AND DESIGN, MT. SHASTA, CA
 08-801-0003-SF   FINANCIAL DISCLOSURE AND OUTSIDE EMPLOYMENT
 2000/06/16       REPORTING REQUIREMENTS

        TOTAL: FOREST SERVICE                                       4    $1,350,000                  $18,796,596

RURAL UTILITIES SERVICE

 09-099-0001-TE GRANTS FOR DOMESTIC WATER AND WASTEWATER
 2000/05/17     PROJECTS

        TOTAL: RURAL UTILITIES SERVICE                              1

NATURAL RESOURCES CONSERVATION SERVICE

 10-099-0002-CH EVALUATION OF REGIONAL AND STATE OFFICE
 2000/04/19     OVERSIGHT ACTIVITIES

        TOTAL: NATURAL RESOURCES CONSERVATION SERVICE               1

OFFICE OF THE CHIEF FINANCIAL OFFICER

 11-099-0014-FM VALIDATION OF CAS RECONCILIATION PROCESS
 2000/09/18

        TOTAL: OFFICE OF THE CHIEF FINANCIAL OFFICER                1

FOOD SAFETY AND INSPECTION SERVICE

 24-001-0003-AT   HACCP-IMPLEMENTATION AND COMPLIANCE
 2000/06/21
 24-099-0003-HY   FSIS IMPORTED MEAT AND POULTRY INSPECTION
 2000/06/21       PROCESS
 24-601-0001-CH   LABORATORY TESTING OF MEAT AND POULTRY
 2000/06/21       PRODUCTS
 24-601-0004-AT   FOOD SAFETY AND INSPECTION SERVICE COMPLIANCE
 2000/06/21       PROGRAM

        TOTAL: FOOD SAFETY AND INSPECTION SERVICE                   4

FOOD AND NUTRITION SERVICE

 27-010-0029-HY   CACFP - STERNHOLD RESOURCES, INC.                       $141,484      $117,408
 2000/09/27
 27-099-0009-AT   CONTINUED MONITORING OF EBT SYSTEM
 2000/09/29       DEVELOPMENT IN FLORIDA
 27-099-0020-CH   FOOD STAMP PROGRAM ADMINISTRATIVE COSTS - OHIO           $52,111
 2000/09/05




                                                                                                               47
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 2000

                                                                         QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                               COSTS          COSTS        PUT TO
RELEASE DATE        TITLE                                                AND LOANS      AND LOANS    BETTER USE


 27-601-0007-TE   CHILD AND ADULT CARE FOOD PROGRAM                          $6,542
 2000/05/17
 27-801-0005-KC   STRATEGIC MONITORING OF THE UTAH EBT SYSTEM
 2000/06/09       DEVELOPMENT, PHASE IV
 27-801-0006-KC   STRATEGIC MONITORING OF THE NORTH DAKOTA EBT
 2000/08/17       SYSTEM DEVELOPMENT, PHASE IV

        TOTAL: FOOD & NUTRITION SERVICE                              6     $200,137      $117,408

RURAL BUSINESS-COOPERATIVE SERVICE

 34-004-0004-HY   RURAL BUSINESS ENTERPRISE GRANT TO VIVERO               $1,620,256
 2000/07/11       CAIMITO
 34-004-0006-HY   RURAL DEVELOPMENT, BUSINESS AND INDUSTRY LOAN,          $4,200,000
 2000/09/27       OTTMAN CUSTOM PROCESSORS

        TOTAL: RURAL BUSINESS–COOPERATIVE SERVICE                    2    $5,820,256

MULTIAGENCY

 50-018-0007-CH   SINGLE AUDIT OF THE IL DEPT OF AGRICULTURE               $140,300
 2000/04/17
 50-018-0008-CH   SINGLE AUDIT OF THE MI DEPT OF AGRICULTURE
 2000/05/18
 50-018-0009-CH   SINGLE AUDIT OF THE MI DEPT OF COMMUNITY HEALTH         $5,148,538
 2000/05/18
 50-018-0009-HY   COMMONWEALTH OF PUERTO RICO-DEPARTMENT OF               $6,893,792
 2000/09/05       AGRICULTURE, A-128, 6/30/95 & 6/30/94
 50-018-0010-CH   SINGLE AUDIT OF THE STATE OF MINNESOTA - 1998
 2000/07/07
 50-020-0067-SF   A-128 AUDIT OF PUBLIC SCHOOL SYSTEM OF COMMON-
 2000/05/15       WEALTH OF NORTHERN MARIANAS, FYE 9/30/95
 50-020-0068-SF   A-128 OF PUBLIC SCHOOL SYSTEM OF THE COMMON-
 2000/05/15       WEALTH OF NORTHERN MARIANAS FOR FYE 9/30/96
 50-020-0069-SF   A-128 - AMERICAN SAMOA GOVERNMENT, 9/30/94              $1,289,547    $1,236,961
 2000/07/05
 50-020-0074-HY   COMMONWEALTH OF PUERTO RICO – DEPARTMENT
 2000/08/02       OF FAMILY, A-128, 6/30/96
 50-020-0075-HY   COMMONWEALTH OF PR-DEPARTMENT OF EDUCATION,                  $664
 2000/07/11       A-128, 6/30/96
 50-021-0001-HY   COMMONWEALTH OF PENNSYLVANIA, A-133, 6/30/99
 2000/09/05
 50-021-0002-SF   A-133 AUDIT- HAWAII STATE DEPARTMENT OF
 2000/07/05       AGRICULTURE
 50-021-0003-SF   A-133 AUDIT - CITY OF SAN JOSE FOR THE FISCAL
 2000/07/24       YEAR ENDED JUNE 30, 1999
 50-099-0028-FM   PCIE/ECIE CRITICAL INFRASTRUCTURE PROTECTION
 2000/07/18       REVIEW - PHASE 1 AND 2
 50-801-0003-KC   CROP LOSS DISASTER ASSISTANCE PROGRAM                  $10,318,505                    $274,547
 2000/09/28
 50-801-0011-TE   ADVANCES TO NONPROFIT ORGANIZATIONS FOR                  $397,108
                  GRANTS/COOPERATIVE AGREEMENTS

        TOTAL: MULTIAGENCY                                          16   $24,188,454    $1,236,961      $274,547


        TOTAL: RELEASE - NATIONWIDE                                 51   $37,867,401    $1,367,079   $224,437,802




48
Abbreviations of Organizations
AMS        Agricultural Marketing Service
APHIS      Animal and Plant Health Inspection Service
ARS        Agricultural Research Service
CCC        Commodity Credit Corporation
CDFA       California Department of Food and Agriculture
CR         Office of Civil Rights
CSREES     Cooperative State Research, Education, and Extension Service
EEOC       Equal Employment Opportunity Commission
FAS        Foreign Agricultural Service
FBI        Federal Bureau of Investigation
FCIC       Federal Crop Insurance Corporation
FDA        U.S. Food and Drug Administration
FNS        Food and Nutrition Service
FS         Forest Service
FSA        Farm Service Agency
FSIS       Food Safety and Inspection Service
GIPSA      Grain Inspection, Packers, and Stockyard Administration
INS        Immigration and Naturalization Service
IRS        Internal Revenue Service
NBMC       National Business Management Center
NFC        National Finance Center
NRCS       Natural Resources Conservation Service
OCFO       Office of the Chief Financial Officer
OCIO       Office of the Chief Information Officer
OGC        Office of the General Counsel
OIG        Office of Inspector General
OPHS       Office of Public Health and Safety
PCIE       President’s Council on Integrity and Efficiency
RBS        Rural Business-Cooperative Service
RHS        Rural Housing Service
RMA        Risk Management Agency
RUS        Rural Utilities Service
SEC        Office of the Secretary
Treasury   U.S. Department of the Treasury
USDA       U.S. Department of Agriculture
U.S. DEPARTMENT OF AGRICULTURE
OFFICE OF INSPECTOR GENERAL
STOP 2309
1400 INDEPENDENCE AVE. SW.
WASHINGTON, DC 20250-2309




                                 www.usda.gov/oig
